<html>
<title> - [H.A.S.C. No. 111-93]CHARTING THE COURSE FOR EFFECTIVE PROFESSIONAL MILITARY EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-93]

   CHARTING THE COURSE FOR EFFECTIVE PROFESSIONAL MILITARY EDUCATION

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
53-210                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
               William Johnson, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, September 10, 2009, Charting the Course for Effective 
  Professional Military Education................................     1

Appendix:

Thursday, September 10, 2009.....................................    29
                              ----------                              

                      THURSDAY, SEPTEMBER 10, 2009
   CHARTING THE COURSE FOR EFFECTIVE PROFESSIONAL MILITARY EDUCATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Barno, Lt. Gen. David, USA (Ret.), Director, Near East South Asia 
  Center for Strategic Studies...................................     4
Murray, Dr. Williamson, Ph.D., Professor Emeritus, The Ohio State 
  University, Senior Fellow, Institute for Defense Analyses......     9
Williams, Dr. John Allen, Ph.D., Professor of Political Science, 
  Loyola University Chicago, President, Inter-University Seminar 
  on Armed Forces and Society....................................     7

                                APPENDIX

Prepared Statements:

    Barno, Lt. Gen. David........................................    38
    Murray, Dr. Williamson.......................................    58
    Snyder, Hon. Vic.............................................    33
    Williams, Dr. John Allen.....................................    49
    Wittman, Hon. Rob............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    85
 
   CHARTING THE COURSE FOR EFFECTIVE PROFESSIONAL MILITARY EDUCATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                      Washington, DC, Thursday, September 10, 2009.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 210, Capitol Visitors Center, Hon. Vic Snyder (chairman of 
the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good morning, and welcome to the sixth in a 
series of hearings on Officer in-Residence Professional 
Military Education, which we know throughout the military and 
here on the Hill as PME.
    Our hearings thus far have explored various aspects of the 
service-specific and joint institutions that make up the 
current PME system. We have examined missions, curricula, and 
standards of rigor, the quality of staff, faculty, and 
students, and organization resourcing at the precommissioning, 
primary, intermediate, and senior PME levels.
    Professional military education is an investment in the 
most important element of our military, our people. The primary 
purpose of PME is to develop military officers throughout their 
careers for the rigorous intellectual demands of complex 
contingencies and major conflicts. We can't afford to be 
complacent when it comes to producing leaders capable of 
meeting significant challenges whether at the tactical, 
operational, or strategic levels. As a matter of national 
security, we must invest wisely.
    The PME system bears a special responsibility for staying 
relevant amid change. As a key mechanism for individual and 
force development, PME must both respond to present needs and 
anticipate future ones. The PME system must continually evolve 
in order to enable officers to assume expanded roles and to 
perform new missions in an increasingly complicated and 
constantly changing security environment.
    For instance, we know that PME can empower officers to 
contribute to interagency and multinational operations and to 
effectively utilize foreign languages and cultural skills. We 
have heard from some of the schools that they are currently 
striving to embrace these and other important educational 
priorities. Are they doing a good enough job?
    In short, the PME system must consistently improve. Twenty 
years ago, the Skelton Panel report on PME stated, ``Although 
many of its individual courses, programs, and faculties are 
excellent, the existing PME system must be improved to meet the 
needs of the modern profession at arms.''
    That statement is true today. Twenty years ago, we were 
educating officers to engage against our Cold War adversaries. 
Clearly, much about our military and our world has changed 
since then. Much will continue to change as we look to the 
future.
    With respect to PME, these questions should always apply: 
How well are we educating our officers presently, and what 
should we be doing to educate them more effectively in the 
future?
    Our witnesses for this hearing are prominent former senior 
military and civilian academic leaders, each of whom has 
significant experience with the PME system. I look forward to 
hearing your views.
    I now recognize Mr. Wittman for any comments he wants to 
make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 33.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman.
    It is an honor and privilege to be here today on this 
panel, and also I want to thank our witnesses for taking time 
out of your busy schedules to join us and give us your thoughts 
and ideas on what we can do to enhance our system of PME here 
in the United States.
    This morning the subcommittee conducts its sixth and final 
scheduled hearing on Officer in-Residence Professional Military 
Education. We began the study with testimony from outside 
experts who posed issues for the subcommittee to consider, then 
conducted four sessions in which we heard from many Department 
of Defense (DOD) and military service witnesses, who discussed 
various components of the PME system and how it all fits 
together. We will conclude this final hearing with additional 
thoughts from you very well-qualified witnesses and your 
thoughts and ideas on what we can do to make sure we round out 
this PME experience for our men and women in uniform.
    I think our approach as a committee is sound and hope that 
today's panel will put the issues in perspective for the 
subcommittee and suggest a path forward.
    During the course of this study, I have come to respect and 
admire our professional military education system. There is 
nothing else in the rest of the Federal Government or, to my 
knowledge, private industry which begins to emulate the 
significant and continuous investment we make in educating and 
developing our military officers.
    It is important for all of us to keep in mind that today's 
system produces quality, successful officers, who operate in a 
wide range of demanding and difficult positions. That does not 
mean that there aren't areas that need improvement, but we 
should not lose sight of the fact that we have a system that, 
for the most part, serves us well.
    Through this process I have had the opportunity to listen 
to witnesses, travel to PME institutions, and meet with senior 
leaders alongside Chairman Snyder. In fact, this past Friday I 
visited the U.S. Naval Academy and had the unique opportunity 
to observe some of the quality training our junior officers 
receive at the service academies.
    By the way, I was there as the football team was leaving to 
go play Ohio State, and I can tell you it was an exciting 
Saturday for our midshipmen there, where they were almost 
victorious against Ohio State. Quite a great day for them.
    From all of these visits and discussions, two recurring 
themes stand out in my mind as the most valuable aspects of 
PME. First, I heard mostly from the students is the value of 
interacting with fellow students of differing background, 
particularly those from the State Department, international 
students, and those from other military services.
    The second most valuable skill these students can develop 
is critical thinking, as there is no way to anticipate the 
ever-changing situations officers face in today's world of 
continuous deployments.
    Whatever we may suggest, I think it is imperative that we 
retain these aspects of today's PME system. It was time that we 
undertook this effort, and I am pleased to have been a 
participant in what I think is an extraordinary effort, and I 
want to thank Chairman Snyder for his leadership and all of his 
direction in pursuing this effort.
    Over the past 20 years, the United States has significantly 
changed the way it employs its military forces, sending troops 
abroad to address regional issues with far greater frequency 
than we did during the Cold War. It is also apparent that the 
system, like any large system involving people, faces 
challenges in today's dynamic environment of high operational 
momentum. Even so, I think today's PME system, by and large, 
serves the Nation well; and we should carefully consider any 
potential recommendations from this committee.
    Again, Mr. Chairman, thank you for your leadership; and I 
look forward to hearing from the witnesses.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 35.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Lieutenant General David Barno, 
U.S. Army Retired, Director of the Near East South Asia (NESA) 
Center for Strategic Studies; Dr. John Allen Williams, Ph.D., 
Professor of Political Science at Loyola University, Chicago, 
and President of the Inter-University Seminar on Armed Forces 
and Society; and Dr. Williamson Murray, Ph.D., Professor 
Emeritus, the Ohio State University, and Senior Fellow at the 
Institute for Defense Analyses.
    We appreciate you all being here. Your written statements 
will be a part of the record. I have read your written 
statements, and I am excited about this discussion today.
    We have mentioned our previous five hearings, the visits we 
have had. We have been doing a lot of wading down in the weeds, 
as you know, when you get down talking about tenure of a 
professor, all those kinds of things that are important to 
academics. I think you all have backed us up a little bit 
higher to get a look at the broad views, which I think is very 
important as we go into the next phase of this.
    The next phase of this, by the way, is now, with a whole 
lot of staff effort, to put together everything that we have 
learned on all their visits and travels and our meetings and 
our hearings and what recommendations can we make to the 
Congress and the military to move ahead on this. So your 
comments today are very helpful.
    So, General Barno, do you have a light down there? We will 
put on the clock for you. If you see that red light, it means 
you have gone five minutes. If you still have some things to 
say, go ahead and do it, but it is just an idea to give you an 
idea where we are at.
    General Barno.

 STATEMENT OF LT. GEN. DAVID BARNO, USA (RET.), DIRECTOR, NEAR 
          EAST SOUTH ASIA CENTER FOR STRATEGIC STUDIES

    General Barno. Thank you, Mr. Chairman and Ranking Member 
Wittman. Thanks to all of you and to the committee for the 
opportunity to appear here today and talk on an extremely 
important topic.
    I feel a bit out of balance on the table here since I am, 
in one sense, probably the only nonacademic in terms of my 
overall background here. But I hope that, despite having gone 
through the entire professional military educational system and 
done some graduate school work in the civilian world as well, 
but that, combined with my time having commanded from 
lieutenant, as a company commander all the way to lieutenant 
general as a commander in Afghanistan, will provide a bit of a 
balanced outlook to what may become academic in some respects. 
But professional military education is a critical competency of 
the military.
    I am involved in the academic world today. I have been for 
the last three years as the Director of the NESA Center at 
National Defense University, but I will give my comments today 
of my own personal views, as opposed to speaking for the 
government.
    I would also highlight to the committee that I have got a 
personal stake in this, with two sons in uniform; two Army 
captains out there in the field, one who served a year in 
Afghanistan already. So I have a vested personal interest in 
ensuring that our long-term professional military education 
remains strong.
    I think I would like to talk a bit about some of my 
characterizations of where we are today and some of the demands 
on the force today in terms of our leadership and then 
highlight in my opening comments here five recommendations for 
the committee to consider.
    First, I would note that we are in an environment where 
warfare is changing at a very rapid pace. If we were to have 
this hearing just 10 years ago, in 1999, and we had some 
distinguished military officers up here to ask about what the 
future of war was going to look like, we would have heard them 
talk about rapid, decisive operations and precision strike and 
focused logistics and information dominance; and they would 
have drawn their understanding of warfare from the 1999 Kosovo 
air war, which would have just concluded, which involved no 
ground combat troops at all.
    And if we were to just move them forward a couple of years, 
they would have seen a lot of those ideas played out in the 
opening gambits in Afghanistan, where we were able to collapse 
the Taliban regime in about 90 days after a standing start, an 
important reminder this week with the anniversary of 9/11, and 
then a few years later in Iraq, where in a six-week lightning 
ground campaign we saw our military forces overwhelm an 
extraordinarily large and capable army by really shattering 
their ability to resist. That would have been their view of 
warfare.
    Today, if we asked that same group what warfare looks like, 
we would have found a very different description of warfare. 
Today, we are clearly actively involved in two major irregular 
warfare conflicts--one in Iraq, one in Afghanistan--which have 
taken us down a very, very different road than our outlook on 
warfare just 10 years ago at the beginning of this decade.
    So I highlight that fact because I think it describes the 
complexity of the challenge that face our military leaders 
today, all the way from the tactical level as platoon leaders 
and company commanders, all the way to our senior-most 
generals. The bloody, uncertain, chaotic nature of war has not 
changed, but the character of war, how it plays out, what the 
options are, are ever changing between irregular warfare, 
conventional warfare, and now what some are now calling hybrid 
warfare--a combination of the two--such as we saw Hezbollah 
fight in south Lebanon in 2006.
    This is an extraordinarily more difficult environment to 
think about warfare than the environment I entered into in the 
Army in 1976, where the Cold War was very much still the 
centerpiece of our very predictable military confrontation. So 
we have set the bar higher for the requirements, I think, for 
our military leaders.
    I would also I think characterize some of our 
decisionmaking and strategic thinking over the last 10 years as 
somewhat questionable. We have a number of pundits who would 
certainly ascribe to that view. There have been a number of 
books on the Iraq War that have cited what authors have 
described as a failure of strategic leadership.
    I read recently a report by Andrew Krepinevich and Barry 
Watts here from the Center for Strategic and Budgetary 
Assessments that had this observation in it: ``The ability of 
the U.S. national security establishment to craft, implement, 
and adapt effective long-term strategies against intelligent 
adversaries at acceptable costs has been declining for some 
decades.''
    They went on to say that, ``reversing this decline in U.S. 
strategic competence is an urgent issue for the American 
national security establishment in the 21st century.''
    I am not sure I would go as far as my friend Andy 
Krepinevich would in this, but I think he is onto an issue of 
concern, which is our ability to convert our current 
educational establishment and development of officers into 
effective strategic leadership.
    We have seen articles, such as ``A failure in generalship'' 
by Lieutenant Colonel Paul Yingling, that have been very 
critical of America's military leadership.
    Of course, all of our military leadership, myself included, 
have gone through our professional military schools. So I think 
it is appropriate to look at how we are teaching, how we are 
developing officers, and ask questions about whether we have 
got it fully correct or not.
    I would say, however--and I think all the panelists would 
agree with me, as I heard already from the committee members 
this morning--that we have an amazing military. We have an 
incredible force. We have some of the best leadership we have 
ever had in the field, under the most difficult conditions; and 
I think that that is a hallmark of who we are.
    Preserving that asymmetrical advantage we have and our 
intellectual capability in the military is extraordinarily 
important. And I would highlight that I think the majority of 
our investment in a lot of ways has been made at the tactical 
and operational level, and I look at the amount of time we are 
spending at the strategic level throughout our programs, 
especially as officers reach flag rank, and I have some 
question in my mind as to whether we have got that quite right.
    Specifically, I think that our educational development for 
officers peters out. It diminishes to near nothing at the flag 
officer level, at the brigadier, at the one-star admiral level. 
Whereas, as a lieutenant I might go to a course for six months 
before I stood in front of a platoon of 40 soldiers, as a flag 
officer, the longest course I will go to is six weeks long. 
There is something perhaps not right about that, given the 
complexity and the impact of the demands at that level.
    So, five brief recommendations.
    First, I think we need to look at our civilian graduate 
programs and incentivize that for our highest-performing 
officers. There is no substitute for a civilian graduate degree 
to sharpen the thinking of our officers as they move up through 
the ranks and they become senior officers. That helped me 
more--my graduate schooling here at Georgetown University as a 
captain helped me more than perhaps any other developmental 
experience at the strategic level. Most officers today will not 
have that experience. The vast majority will not. They will 
have master's degrees, but they will get them from military 
schools. That is a major change from when I was a young 
officer.
    Second, I think we need to make military intellectualism 
and military thinking and thinking warriors respectable again. 
We have been in a war now for the better part of nine years. We 
have a great muddy boots generation of leadership. We need to 
make sure they are thinking muddy boots leaders, and we need to 
incentivize with our senior leaders in how they speak about 
thinking about warfare, that being a military intellectual is 
an expectation of all of our leaders. To be a thinking warrior 
is what we are looking for.
    Senior service college. Our senior service colleges, the 
Army War College, National Defense Universities are the last 
major investment we make in education for our officers. I think 
we have to look very carefully at that curriculum to ensure it 
is rigorous enough, focused enough on strategy and that we 
don't outsource aspects of it to fellowships that don't have 
nearly the same degree of rigor, which is becoming a common 
practice, particularly in the U.S. Army.
    Fourth, service officer personnel systems. Personnel 
systems drive the selection and development of senior leaders. 
I think we have to look very carefully at that. We now have, in 
effect, a 40-year career for our generals. We should invest 
more of that time in their education. The time is available. I 
cannot be convinced that we can't find time to invest in the 
most important part of an officer's education than at the 
senior and most strategic level.
    Finally, the flag officer program, which reinforces that. I 
think our current six-week Capstone program has major 
shortfalls in it. It has been reduced from a nine-week program 
just a few years ago. It has very little educational rigor and 
is not representing the needs and requirements demanded of flag 
officers. I think we need to revisit that and look at how that 
might be improved.
    So, again, Mr. Chairman, thanks for the opportunity to 
present these views. I look forward to following up in more 
detail during the questions. Thank you.
    Dr. Snyder. Thank you, General Barno.
    [The prepared statement of General Barno can be found in 
the Appendix on page 38.]
    Dr. Snyder. Dr. Williams.

   STATEMENT OF DR. JOHN ALLEN WILLIAMS, PH.D., PROFESSOR OF 
POLITICAL SCIENCE, LOYOLA UNIVERSITY CHICAGO, PRESIDENT, INTER-
         UNIVERSITY SEMINAR ON ARMED FORCES AND SOCIETY

    Dr. Williams. Thank you. I thank Chairman Snyder, Ranking 
Member Wittman, and the distinguished members of this 
subcommittee for the opportunity to be here today. It is a 
genuine honor.
    Military success requires adaptive leaders and strategists 
who are able to deal with ambiguity, imagine the unimaginable, 
and handle the unruly strategic environment that is upon us. 
Studying theories about war must never make war itself a 
theoretical exercise, however. Military scholarship must 
contribute to the primary purpose of the force, which is to 
prevail in combat. The military education system must support, 
not subvert or detract from rigorous military training and the 
mindset that makes victory possible.
    I propose two goals for the military PME system: first, to 
develop strategists and leaders to meet future complex and 
ambiguous challenges and, secondly, to strengthen civil-
military relations.
    During the Cold War, the prospective enemy was apparent. We 
knew how he would fight. We even knew the likely axis of 
attack. With the attacks of 9/11, however, a new, much less 
certain paradigm emerged. Unfortunately, traditional threats 
still remain and the major military mission became all of the 
above.
    Domestically, militaries reflect the societies they serve, 
whether it is the Vietnam-era tolerance for drug use or the 
evolving comfort level with diversity of all kinds and with 
nontraditional roles for women. Demands for the military to 
change accordingly will not be far behind. It will require the 
most educated and adaptive leadership to manage the military 
successfully as such changes inevitably occur.
    The military might also be called upon to operate 
domestically in ways never envisioned, with posse comitatus 
restrictions waived in view of a civil emergency. This could be 
to restore order in the wake of some catastrophe or even to 
enforce a quarantine. We want the most broadly and humanely 
educated officers thinking about how to operate in this 
environment.
    The military education system should encourage potential 
strategists, broaden their intellectual horizons, and help them 
develop the skills they need to be effective, and to do so as 
early in their careers as possible. It must also ensure that 
all officers form the habit of thinking strategically. Rigorous 
educational experiences will help students develop the 
intellectual capital they will need later in their careers. 
This applies to the increasingly professionalized enlisted 
ranks as well, the subject of further study, I think.
    The mix of technical, social science, moral, and humanist 
components in curricula at all levels need to be rebalanced if 
we are training officers to lead people as opposed to machines. 
It is past time to reemphasize the importance of the humanities 
and social sciences, deemphasized in the Navy, for example, for 
at least three decades because of the presumed need for all 
officers to emphasize highly technical competence above all 
else.
    We need to retain also a variety of commissioning sources. 
Many Reserve Officers' Training Corps (ROTC) programs at 
prestigious universities were lost in the Vietnam era. These 
are an important link with the civilian society, but there must 
also be sources of officer accession that are not subject to 
the political whims of university professors.
    The service academies are repositories of service culture, 
a source of pride to the American people, and, by virtue of the 
appointment process through this Congress, ensure a wide 
representation of students. Their abandonment would be a 
serious mistake; and, once destroyed, they could never be 
rebuilt.
    Officer Candidate School (OCS) programs can be expanded 
rapidly with no need for the government to fund the college 
education for the inductees.
    More engagement with the civilian academic community would 
be beneficial to officer PME. Examples include accreditation 
programs for the military's master's degree programs; first-
rank civilian professors at military residential schools; 
participation in rigorous scholarly professional societies, 
such as the one I have the privilege of heading, the Inter-
University Seminar on Armed Forces in Society; and enhanced 
civilian graduate education opportunities, especially at the 
mid-career level. As General David Petraeus noted, this 
experience helps bridge the gap between those in uniform and 
those who have had little contact with the military.
    As the Congress considers these issues, I recommend that 
the following six items be included as important 
considerations: not to repair a broken system but to make an 
excellent system still better; enhancing the role of the 
humanities and social sciences, including language and cultural 
studies; considering the effect of the PME system on the 
relations between the military and civil society; encouraging 
the flow of highly qualified civilian instructors into the 
academic portions of residential military PME programs, whether 
as visiting professors or permanent staff; encouraging the best 
officers to interact with civilian academic institutions and 
organizations; making performance in educational institutions a 
strong factor in subsequent assignments and promotions. 
Finally, focusing on the increasing professionalization of the 
enlisted force and considering how enlisted educational 
opportunities can better meet evolving security challenges.
    Thank you, and I look forward to our discussion this 
morning.
    Dr. Snyder. Thank you, Dr. Williams.
    [The prepared statement of Dr. Williams can be found in the 
Appendix on page 49.]
    Dr. Snyder. Dr. Murray.

STATEMENT OF DR. WILLIAMSON MURRAY, PH.D., PROFESSOR EMERITUS, 
THE OHIO STATE UNIVERSITY, SENIOR FELLOW, INSTITUTE FOR DEFENSE 
                            ANALYSES

    Dr. Murray. Dr. Snyder, it is a great pleasure to address 
the committee and yourself.
    I would begin by commenting that, as you well know, the 
medical profession takes its education of its future doctors 
very seriously. I would argue that the military is a 
profession, perhaps the most difficult of all the professions, 
not only because it is so physically demanding, but I would 
argue intellectually demanding. And it is intellectually 
demanding, I would suggest--and I don't want to go through my 
paper in great detail--but I think as a historian looking at 
the past 100 years, we are going to be surprised in the 21st 
century. We are going to fight opponents who we cannot conceive 
of today.
    Maybe all one has to do is think back to the summer of 
2001, and if I had lectured at one of the war colleges and 
suggested that we were going to send a large force to overthrow 
the Taliban in Afghanistan, I would have been laughed off the 
stage. But that kind of surprise is going to come out of the 
woodwork and bite us in the 21st century, and we have got to 
develop an intellectually adaptable officer corps that 
understands other cultures and other histories.
    Let me--because I think most of you have read my general 
comments, let me just sort of run through suggestions that I 
have and gave considerable thought to.
    First of all, I think Congress needs to fund a sufficient 
overage of officers at all grades to allow sufficient time for 
serious study without penalty either to their careers or to 
operational requirements. It is particularly acute now, but 
once the pressure is off I think it still will be useful and 
important for Congress to make available to the military the 
kind of latitude that allows officers to go to the best 
graduate courses and best graduate degrees in war studies, 
strategic studies, military history, international relations, 
not just in the United States but around the world.
    I think there is another great difficulty--that was my 
second point--and that has to do with, of course, personnel 
systems, which Congress has given, I think, considerable 
greater latitude than was true 20 years ago. But, by and large, 
personnel systems are not using that latitude, if you will, to 
encourage people to step outside of the normal career paths, 
like General Petraeus did and H.R. McMaster, being two specific 
examples in terms of the Army.
    I would also suggest the professional military education is 
being underfunded. I think this shows in terms of the capacity 
of those institutions to reach out to bring in scholars from 
around the country.
    The great advantage that the United Kingdom enjoys is that 
it just takes a train ticket to bring somebody from Edinburgh 
down to London. Here, if you want to bring somebody from 
Stanford, you will pay a ticket across the United States. And I 
think this is absolutely essential, that our military and its 
educational system not be confined too narrowly to the experts 
within Washington or the experts within particular educational 
systems.
    The fourth point--and I think this is very important--is 
the presidents and the commandants of the various schools need 
to be far more carefully selected than in the past. I think the 
services themselves, the senior leadership, need to give far 
more support to those individuals.
    If you look back at the history of the last 25, 30 years at 
major successful PME reforms--Stansfield Turner, the Naval War 
College, 1970, supported fully by the Chief of Naval 
Operations; Chuck Boyd at the Air University in the early 
1990s, supported fully by the leadership in Washington; Paul 
Van Riper, establishing Marine Corps University, supported by 
General Gray; and the creation of School of Advanced Military 
Studies (SAMS), supported with three incredibly brilliant 
officers, Rick Senreich, Vasta Sager, and General Don Holder, 
fully supported by Army generals at the four-star level, Otis 
and Richardson in particular. We have simply got to be willing 
to do that and not treat these schools as a nice place for 
admirals and two-star admirals and two-star generals to retire 
in.
    I think that the services need to focus more seriously on 
professional military education from the very beginning of an 
officer's career right through to the end; and having taught at 
the Naval Academy for 2 years--a wonderful experience, great 
midshipmen--I don't think they are prepared the way they should 
be across the board in issues dealing with military strategy 
and military history.
    Finally, I just want to give the committee my compliment 
for--I discovered my last, seventh point, is overtaken by 
events. You have done precisely what I recommended. You go out 
to the institutions and talk to them.
    Again, I think one of the ironies in looking at the 
landscape of professional military education is the Naval War 
College still remains, by far and away, a world-class 
institution for the study of strategy; and not to have an 
equivalent type of institution down in Washington, a national 
war college, I think, is a shame. But I think the gold standard 
should be met by the other war colleges.
    Finally, General Barno's suggestion, I think, is a 
brilliant one. The Skelton Committee report of 1988 or 1989, 
whatever it was, the finest study on professional military 
education ever done anywhere, anyplace, recommended the 
creation of a strategic college for general officers. I would 
recommend that Capstone be turned into the equivalent of the 
British higher command and staff course, which not only gives 
officers I think it is a four- or five-month course, very 
rigorous course, but they are ranked at it, and who gets the 
two- and three- and four-star joint assignments depends upon 
how you did in the higher command and staff course. I think it 
would focus the services a little more seriously on preparing 
the officers both for the course and then to more seriously and 
rigorously educate officers so that we don't have to make the 
kind of mistakes that were made in the Iraq War and the Afghan 
War post 2001, post 2003.
    Thank you very much, sir.
    [The prepared statement of Dr. Murray can be found in the 
Appendix on page 58.]
    Dr. Snyder. Thank you, gentlemen, for your comments.
    We will put ourselves on the five-minute clock and have at 
least two, if not more, rounds.
    The first question I wanted to ask you--I just wanted to 
give you each an opportunity. You all are involved in academic 
work in some way and are used to critiquing things. I would 
like to give each of you the opportunity to either critique or 
compliment what the other folks had to say.
    Is there anything you want to amplify on, General Barno, 
that Dr. Williams or Mr. Murray said?
    General Barno. I don't hear too many things I disagree with 
with either of them. I think one of the benefits of this panel 
is that we are not required to defend a position which we may 
or may not agree with in public. I think all of us are free to 
speak from a lot of experience in this arena and a lot of 
commitment to where this goes.
    I think, as I have noted down the comments from both my 
contemporaries here, I see little to quarrel with. I do think I 
would just reinforce that I think the senior-most level PME is 
the area where I have the greatest concern; and I think that, 
to a degree, is shared on my left.
    We seem to have built a program that has created 
extraordinary tactical and operational officers, and a lot of 
that I think could be attributed to the fact that most of the 
program is at that level of their careers--lieutenant, 
captains, majors. We have done far less well, in most of our 
estimation--I think I heard that from each of the witnesses up 
here. We have done far less at the strategic level. We need to 
ask why and what can be done to rectify that.
    I am not sure I would agree that that has to occur at the 
beginning of a career. I think we really have to look at the 
more senior levels and how we grow these people and develop 
those people when they become senior for those senior jobs.
    Dr. Snyder. Dr. Williams.
    Dr. Williams. I am pleased to hear the General emphasizing 
the importance of civilian graduate education. I am sure Dr. 
Murray agrees as well. But I am more concerned about the junior 
and the mid-career.
    General Petraeus wrote a great article for Armed Forces and 
Society when he was a major, back in 1989, on the military 
advice on the use of force and how effective it was, advice to 
the civilians. So I think there is a lot more spade work that 
can be done and development done early. But the time you are in 
war college, you are going to be polishing some things up, but 
it is too late really to start anything, I think.
    Dr. Snyder. Dr. Murray.
    Dr. Murray. I think we are 98 percent in agreement.
    Let me just extend General Barno's comment. I think it 
begins to a certain extent at precommissioning. But the crucial 
point, I think, is the captain level. If you look at people 
like Don Holder and Petraeus and various other individuals who 
have gotten the mark as first rate strategists, they have 
gotten that mark really in terms of beginning to fill their gas 
tank at the captain level.
    And here I think sending individuals out to graduate school 
for a couple of years to get a master's or Ph.D.--in fact, at 
Ohio State, we got a significant number of our officers through 
in two years, All But Dissertation (ABD), and able to write 
their dissertations at the next level.
    So, again, I think this sort of education developing and 
opening officers' minds to the wider aspects of their 
profession is crucial.
    Dr. Snyder. Dr. Murray, I think you in your written 
statement referred to the challenge of the whole system 
educates in stages. Wasn't that your phrase? Early on, you 
compared PME with medical education as a family doctor.
    But we don't educate in stages in medical school. You come 
right out of medical school, then you do your residency, then 
you may do an additional fellowship. So, for example, a 
cardiologist, four years of medical school, three years 
internal medicine residency, then probably a couple of years, 
at least, of a fellowship. But that is probably it for the 
career. For the next 50 years, they will practice based on 
their continuing medical education. But it is a different 
system, isn't it?
    Dr. Murray. It makes it much more difficult. Because I 
think the crucial element--talking to people like Tony Zinni--
the crucial element in developing I think great military 
leaders comes down to the willingness of the officers, with 
certain encouragement from their senior commanders, et cetera, 
to continue each stage the educational process. That it 
shouldn't be just you get something at the basic course, you 
get something at the captains' course, at the amphibious 
warfare school--or it's now called expeditionary warfare 
school. In fact, it should be a continuous process in which the 
officer is educating himself for the next level. And I think 
that is very difficult to do, particularly given the kinds of 
commitments our forces have today. But a significant number of 
officers do it, and they are the ones who should be rewarded, 
providing they are doing equally well.
    Dr. Snyder. There is an old line about what do you call the 
person who graduates last in a medical school class? Doctor. 
You don't call the person who graduates last at West Point 
General. I think that is the challenge we have.
    Mr. Platts for five minutes.
    I am not sure we have formally welcomed you to this 
subcommittee. It is great to have you. Todd and I have talked 
about some of the issues involving professional military 
education. He has had an interest in it for quite a few years 
now. We appreciate your being on this subcommittee and being 
here today.
    Mr. Platts. Thank you, Mr. Chairman. It is an honor to join 
you and all of the fellow members on the committee.
    I am a new member to the Armed Services, all of about 3 
months, although I have been trying to get on it for 8\1/2\ 
years. So delighted to be here with you.
    I appreciate each of our witnesses' testimony and your 
important work, both civilian and in uniform.
    General Barno, I had the pleasure a good many years ago. 
Although not on the committee, I have been to Iraq nine times 
now and Afghanistan five and continue to educate myself out 
there hands on and hopefully will be back in Afghanistan in 
about two weeks. So I appreciate your long service.
    I guess the first question to all three of you is: In my 
interactions overseas, and especially in Afghanistan, I have 
seen the importance of our work between our military commanders 
and U.S. Agency for International Development (USAID) Foreign 
Service officers, Department of State Foreign Service, but 
especially USAID; and in Afghanistan in one of my visits in the 
Jalalabad area that partnership was clearly critically 
important to the success we were having in the work of the 
civilian and military personnel.
    Do you think we need to strengthen that in the training or 
the education programs, the PME opportunities, and have a 
greater presence of the Department of State Foreign Service 
officers or USAID Foreign Service officers as part of this 
education process and suggestions in what way or to what extent 
should that occur?
    General Barno. Great to see you again. I live on the edge 
of your district there in Dickinson Township. So I have spent a 
lot of time at the Army War College, and you have been a 
tremendous supporter of that great institution as well.
    I think that we are seeing a very slow growth of players 
from across the U.S. interagency participating as students, and 
particularly the war colleges now to a lesser extent, the more 
junior schools such as command and staff college. I think that 
is very good.
    What I find as the limiting factor, though, is that the 
other agencies--government and USAID, Department of State, 
Justice, and so on--simply don't have enough people to be able 
to spare any to go to school. In the military, as we alluded to 
earlier, we have a pool in the Army called the training 
transient holding and school account of people who are 
basically over-strength to allow a substantial number of 
officers to always be in school. So if I take someone out of a 
seat, I have got someone else that will take the job for the 
year the captain or major is gone. In the State Department, 
that is not true. In USAID, that is not true. So they are so 
tightly controlled with the number of oversees requirements 
they have that they simply can't get people to go to school. So 
perhaps that should be addressed.
    But the benefit of that is huge for both their people that 
go to these schools, such as the Army War College or National 
War College, and it is equally huge for the military people 
that get exposed to this other thinking before they get to meet 
these people on the battlefield, which is not how you would 
like to see that evolve.
    Dr. Murray. I think there is a larger issue here, which is 
that the other government agencies simply don't have the school 
system that the military has. I think--not only that. One of 
our best graduate students at Ohio State in the late 1980s came 
to Ohio State, wanted to get a Ph.D. He asked for a leave from 
the Central Intelligence Agency (CIA), and they said no. No 
interest in terms of the external world to that kind of 
broadening experience.
    I think Congress--it is obviously beyond the purview of 
this committee, but I think the larger issue is that the other 
agencies of government need to have something along the lines 
similar to the military's broadening experience if we are going 
to have the kind of interagency cooperation in places like 
Afghanistan.
    Dr. Williams. I think Congressman Platts raised an 
important question. It is difficult to do, get the services to 
come together and do joint education and work in everyone's 
career path. It becomes exponentially more difficult when you 
have the interagency process as well, with different career 
paths, different gates they have to go through as well. Plus, 
they are perhaps even less robustly staffed than the military. 
The military has enough problems.
    To make it even more complicated in that environment, you 
are also dealing with nongovernmental organizations of various 
kinds that you have no control over, and they may not be 
American ones at that. So it becomes a very, very complex 
environment.
    I accept the problem. I had no idea to how to solve it.
    Mr. Platts. I appreciate all three of your perspectives.
    Dr. Murray, your focus about the other agencies not 
emphasizing education or allowing for those opportunities I 
think is kind of the catch-22. Because they are not yet--they 
are expecting their Foreign Service Officers (FSOs) to be out 
there right with military leaders hand-in-hand and not have 
that opportunity to build that relationship ahead of time.
    With Lieutenant Colonel Linda Granfield and Michelle 
Parker, a USAID officer, it was an amazing partnership that I 
saw and actually have kept in touch with both of those 
individuals since they have come back and have taken on new 
assignments because of how impressed I was with their 
abilities.
    I will save my additional questions until the next round. 
Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Platts.
    Mr. Wittman for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, I will ask all of you this question. In looking 
overall, we have heard a lot recently about the whole-of-
government approach to our contingency operations. In taking 
that in perspective with the current PME system, how do you 
think this system can emphasize interagency, intergovernmental, 
and multinational aspects of our future military activities 
into the instructional efforts that we are currently 
undertaking now in our PME system?
    General Barno, we will begin with you.
    General Barno. I think that is evolving and is under way as 
a result of the experiences that Congressman Platts described 
out in the field in Afghanistan and Iraq.
    Now military officers are much different than 10 or 15 
years ago, running into all these people and finding in many 
cases that they now have to have a partnership that works with 
these other parts of government in order for them to accomplish 
their military mission. That is a completely new environment 
than what anyone would have envisioned 10 or 15 years ago. So 
they have already brought that knowledge with them when they 
come to these military PME courses.
    I think where we could probably add some more capacity is 
having instructional support at the colleges, the war colleges 
and the command and staff colleges, that are either from those 
agencies in the government or are retired members with 
experience in the field doing those types of things. It is not 
good enough for a colonel of infantry to talk about USAID 
operations and how they are structured and what their culture 
is and how they think and how they approach things. The 
credibility simply is not there. That is what we have to rely 
on because of how we are set up at some of our institutions. 
But having them on the staff and faculty, having more than the 
students, as we noted before, I think would be very, very 
valuable; and it is replicating what is already happening in 
the field. That's the irony in a way, is that the school system 
in some ways is behind best practices out there in Iraq and 
Afghanistan today.
    Dr. Williams. One of the purposes of the education system 
is to plan and game through things before you are in a crisis. 
The kinds of initiatives that the General is talking about are 
quite good. We open up as many opportunities for people from 
those other agencies and abroad to come and study in military 
colleges. If they need to increase their funding to be able to 
do that, I would hope that Congress would support that as well.
    This tends to be something that builds on itself. Because 
as they become accustomed to working with one another and 
understanding the need to do it, it would become a higher 
priority for everyone. Plus, personal connections will be 
formed. I think this will benefit in the long run.
    Dr. Murray. Let me put a caveat here. Because I think we 
have to realize that, for example, a year at the command and 
staff level or a year at the war college level is a very 
limited time in an academic sense. And these institutions have 
been created specifically to study war and strategy. I don't 
think in many cases they do enough of that to prepare officers 
for the complexity of the kinds of wars and the character of 
the wars that we are going to be involved in.
    What we have seen over the past 20 years to a certain 
extent is not only stuffing more and more stuff into an 
officer's career, gates that they have to pass, but stuffing 
more and more various subjects into what are supposed to be 
graduate level programs. I absolutely believe they have to be 
graduate level programs. And we want to take two weeks away 
from the strategy and policy course at Newport, which is a 
world-class course, to teach something which 10 years from now 
our officers may not be involved in.
    Again, I realize the importance of it, but I think we have 
to understand the difficulties inherent in terms of just 
getting our officers to the level that they need to be in terms 
of understanding war and the use of force.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. I wanted to ask about an issue that came up at 
our very first hearing. And you all may not be able to have a 
comment on this.
    The phrase was used in terms of how to help move this 
process forward. The comment was made by at least a couple of 
our opening panel witnesses, I believe it was, that the 
Chairman of the Joint Chiefs I think the word was ``needs to 
take more ownership of PME'' in terms of making sure that I 
guess it has a champion, that he or she knows what is going on, 
that they have a resource issue.
    Do you all have any comments on that concept?
    General Barno.
    General Barno. I think that is the case today, in talking 
with Admiral Rondeau, who is the new president of----
    Dr. Snyder. Which is the case?
    General Barno. That he is taking a greater role in this. I 
have seen here even recently with regard to at least National 
Defense University--I can't speak to whether he has that 
charter for the service schools or not. I would argue that for 
joint PME that he is the right point of contact, and he needs 
to be a visible champion of that. That is beginning I think to 
evolve from his relationship with the new National Defense 
University president.
    I also think it is equally if not more important that the 
service chiefs are visible champions of their PME programs of 
their service colleges or their staff colleges. And that varies 
widely, as we would expect, given the demands that the service 
chiefs have, their personalities, their backgrounds, what 
schools they went to or didn't go to; and so that becomes 
rather erratic.
    But I think the broader issue that I have got in my notes 
here is that we have to have four-star champions of military 
education. And I would argue that in a lot of ways all four-
stars have to be champions of military education. They have to 
talk about it. They have to make it respectable. They have to 
convince up and coming officers this is part of their 
professional responsibility. Even though what we want to have 
individuals, service chiefs or the chairman have ownership, I 
think all senior leaders have got to spend a lot more time 
talking about the seriousness of study of this profession. 
During my time on active duty, I rarely, if ever, heard that, 
especially in the last five years or so. I think that is 
extremely important.
    Dr. Snyder. Dr. Williams.
    Dr. Williams. I think it is important that the most senior 
officers of the services and, of course, the chairman himself 
do take ownership of this. Because at first it sets the 
culture. It becomes all right to be a strategist and be an 
intellectual. You can see examples of people who manage to be 
very effective warfighters who are also intellectuals as well.
    Also, of course, in terms of resource acquisition, the 
higher your proponent, the more likely you are to get them. 
Also, the four-stars are in a uniquely good position to ensure 
that follow-on assignments and that promotion boards and such 
take the proper notice of these accomplishments of the officers 
and their education.
    Dr. Snyder. Dr. Murray.
    Dr. Murray. I couldn't agree more with what has just been 
said.
    I think a couple of additional points. One is in terms of 
promotion boards. I think an officer's record and standing 
performance in whatever PME school they have attended should be 
as important in terms of judging that officer for promotion as 
service in the field. I think that there has also been, 
unfortunately, as I said earlier, far too little--and General 
Barno obviously feels this way, too--far too little attention 
paid by four-stars to professional military education.
    I can tell you the innumerable times I have heard, sitting 
in the various auditoriums of the war colleges, four-star 
generals say, have a great time here, play golf, get to know 
your family. And that is just the worst kind of 
irresponsibility. But it happens far too much. And only a few 
times have I heard somebody like Tony Zinni say, this is the 
most important year of your military career. And it is. I think 
it really is, given the kind of environment we confront in the 
21st century.
    Dr. Snyder. I am going to run out of time. I want to spend 
some time talking about the issue of the civilian graduate 
degrees. Let me set myself up for the next five minutes.
    But do you all have any hard numbers right now--because I 
don't; I don't know if staff does--on what percentage of our 
general officers have civilian--meet the standard that you are 
setting? Do you prefer they have a degree from a good civilian 
school? Does anybody have those numbers?
    General Barno. I don't have any with me. I know that 
Professor Leonard Wong at the Army War College did a study on 
this in the Army, one-star selects, just a couple of years ago; 
and he compared it with one-star selects about 10 years past. 
And that the number of officers plummeted to single-digit 
percentages in the newest group compared to 10 years ago 
because all the officers in the newer group had graduate 
degrees, but the vast, vast majority came from military 
institutions. Whereas 10 years ago there were a substantial 
number that came from civilian institutions.
    I am sure we can get that study. That pertains only to the 
Army.
    Dr. Snyder. I would assume the number is fairly small.
    Dr. Murray. Dr. Snyder, let me give you one figure which 
the committee might find interesting.
    General Scales, when he was commandant at the Army War 
College and I was working for him as the Johnson Professor of 
Military History, came up with a figure which I think is truly 
astonishing in 1999. I can't vouch for it today, but it would 
be interesting the look at.
    Basically, he discovered the PRC, the People's Republic of 
China, its officers, it had more officers in American graduate 
schools than the services had in American graduate schools.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    I am sorry that I haven't been here for your remarks 
earlier, but I did want to ask you about an issue that I had a 
chance to go over and hear a number of people speak on the 
other day. There was a summit, if you will, held on sexual 
assault and prevention of that in the services, and different 
services presented, as well as a number of other experts. They 
met both Monday and Tuesday. And I am wondering if you believe 
that there is sufficient focus--is there focus on these issues 
as it relates to military culture within the education of our 
men and women and the programs that you are very much engaged 
in? What are we doing at that level and what do you think about 
that education and where should the focus be?
    Dr. Williams. Well, of course, the Tailhook scandal turned 
out to be a teachable moment for everyone. I think from that 
point on it was a very high priority of the Congress and 
therefore of the military, but also people inside the military 
who were horrified by the events and other things that 
occurred.
    It became no longer part of the culture to regard women as 
the other rather than regard the women officers and enlisted as 
part of the us and part of the total force. You can't operate 
without them. They are absolutely vital. They need to be 
treated at all times with dignity and respect. And when those 
occasions occur that they are not, it is and should be a 
career-seeking missile to anyone who would behave 
inappropriately.
    So I think--and even in the civilian world it doesn't ever 
reach perfection, but I think it is so much better, and I think 
it deserves continuing attention so it can continue to be a 
priority.
    General Barno. I am not sure I have visibility today 
currently on how that has evolved, since I left active duty 
three-plus years ago. I do know at that time it was an embedded 
part of all the training programs as well as a unit training 
requirement. There has been a tremendously larger emphasis 
placed in the three years since I last looked at it, but I 
can't give you any current information, particularly at the 
senior levels.
    Mrs. Davis. Thank you. I appreciate that.
    One of the concerns that has been expressed is that, as 
people are looking at advancement, how our leadership handles 
those issues as part of their unit, that that should be 
considered as seriously as any other issues that would go 
before any panels. Would you concur with that? Do you think it 
should be an important metric, if you will, of whether or not 
somebody actually is seen as moving up in leadership?
    Dr. Williams. I would hope anybody reaching senior levels 
would be sensitized to this issue. Obviously, there is always 
the possibility of someone having an undeserved bad reputation 
over some issues, because people differ on what happened and 
when and what was done. So as long as the standards of fairness 
are observed, obviously I quite agree with you that this does 
need to be a consideration.
    General Barno. I would look at it I think from the overall 
performance standpoint. This is an important part of their 
leadership responsibilities. Are they exercising it 
inappropriately or are they involved at the right level?
    There is some risk that if we get too focused on 
individuals' performance in this area that we get across some 
legal thresholds, because most commanders have got legal 
responsibilities. I think we would be not well advised to 
intrude and make decisions or make judgments based upon what 
their legal decisions were in that system. But I do think it is 
clearly and I am very confident that all senior officers look 
at this as part of the leadership responsibilities that every 
officer has out there, and how they perform in that obviously 
will dictate their future promotion potential.
    Dr. Murray. I would argue that it is a training issue that 
needs to be hammered home from the first class that an 
individual takes at a service academy or at a university in 
terms of ROTC. I am not sure it is an educational issue, 
because if they haven't gotten it by the time they are an O-3 
then they shouldn't be wearing the uniform.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I just first echo Congresswoman Davis's focus on the issue 
of sexual misconduct. In the Oversight and Government Reform 
Committee in the past session we have had hearings on the 
National Security Subcommittee specifically focused on the 
service academies. And, you know, thankfully there is more 
focus and attention to this issue, because I think it is at a 
critical stage where we do send that message that there will be 
zero tolerance for this type of misconduct and it will be 
treated.
    Unfortunately, when we had that hearing and we had, I 
believe, all the commandants or the senior officials from the 
academies in the one hearing, and only one of them ever used 
the word ``crime'' in their remarks. Because that is what we 
are talking about here in the type of conduct being considered. 
And that message that this is a crime, whether you are in a 
service academy or wearing a uniform and you sexually assault 
another person, that is criminal, and that needs to be dealt 
with. And that message needs to be reinforced day one at the 
academy or the ROTC programs, wherever, so that they are not 
wearing the uniform if they engage in that conduct. So I 
appreciate the importance of that.
    I think I know the answer, General Barno, to the question, 
based on your statements and written testimony. It is a little 
bit of a follow-up to where the chairman concluded. And that is 
on the issue of advanced degrees, Ph.D.s. My understanding is 
the service-specific schools and the joint PMEs are looking at 
increasing Ph.D. possibilities for their students. That seems 
to run contrary to your belief in the importance of getting our 
senior leaders into civilian institutions for those higher 
degrees and to have that education opportunity outside of the 
cocoon. Am I taking your remarks in the right context?
    General Barno. No, I think it is encouraging to see that 
there is movement forward to try to expand the number of 
Ph.D.s. But, in my judgment, that ought to occur in civilian 
educational institutions. To try and build that--again only my 
opinion--to try and build that inside our military educational 
establishment really deprives you of an existing world-class 
capability that the United States has that is recognized all 
around the globe and also, again, doesn't advantage the 
military officer by getting them into the civilian world and 
the thinking out there, nor does it provide access to the 
military officer around those civilian faculties and among 
those civilian students. We lose out in both regards there.
    One footnote I would also I think add on. That is that I do 
have some concerns about the high-grade civilian educational 
opportunities both for master's and Ph.D.s if those military 
officers who go to those programs come back into our military 
and are then marginalized and are no longer part of the command 
track in the military. There is some risk that as we expand 
these opportunities that we are specializing these officers 
into fields that don't any longer include command.
    The Army has a wonderful program called Functional Area 59 
Army Strategist. And, typically, at the senior captain/major 
level, a few lieutenant colonels, they go into this program, 
they get an educational experience at the Army War College, and 
they go out to the field and they serve on senior staffs as 
strategists. Wonderful program.
    None of those people will ever command again. They are in a 
specialty now that they have been designated a strategist, and 
they will never be a commander because they are now single 
track in that specialty. I think that is very risky; and there 
is many more examples of that I think out there, particularly 
in the Army, from what I have seen.
    Dr. Murray. It is worth noting that one of them has 
actually just been promoted to brigadier general, Bill Hix. 
Because nobody thought that anyone would ever be promoted to 
general but Bill Hix. He will not command.
    I think there is another issue here, which is I have 
watched as a military historian over the past 25, 30 years of 
my career, and that is the significant decline of military 
history programs and strategic studies programs in the United 
States. It is worth noting in Canadian universities and in 
British universities there will always be one professor, and 
usually two or three, dealing with these issues. The number of 
major university programs in the United States dealing with 
military and strategic history is down to about two or three, 
and that is I think a significant weakness and a dangerous 
weakness.
    Dr. Williams. General Petraeus talked about the importance 
of civilian education and the importance of the military going 
outside the cloister, close to what you said, Congressman 
Platts. I think he is right on that.
    In terms of civil-military relations, I want our elite 
military officers meeting the brightest, most elite civilians, 
and I want them interacting with each other. I want them to put 
a human face on one another. I want the military to get how 
civilians think, and I want the civilians to get how the 
military thinks and not be lured into stereotypes. I think it 
would be beneficial for civil-military relations, especially 
since they don't really have to come together on many 
occasions.
    Mr. Platts. I agree wholeheartedly. Because as we have a 
smaller percentage of the population having any tie directly or 
family to the military, and we are blessed with amazing 
military families, and having the privilege of representing the 
Army War College, where I see my senior officers that come 
through there and then their sons and daughters are the second 
lieutenants coming up, you know, it is an amazing commitment 
those families make. But it means we have a smaller percentage 
of people who understand the sacrifices being made.
    I use my family as an example. My dad was one of nine 
children. He and his four brothers and all four of his brother-
in-laws all were military. One generation later, one of us five 
boys and girls, son or daughter or in-laws, one of five 
military service. And that is not good I think for that 
understanding of our history and the needs of our military and 
the important role. So the more interaction that we can 
promote, I agree, is critically important in whatever way we 
can do it.
    Dr. Williams. The fact that reserve forces are actually 
mobilized and actually used and interact and are themselves so 
penetrating in the community, I think that fills in for some of 
it.
    Mr. Platts. Yeah.
    Dr. Williams. That is something that isn't often thought 
about in terms of reserve forces. But the civil-military 
dimension is crucial there.
    Mr. Platts. In the current environment, you are right. That 
is, I guess, one of the silver linings of the demands we are 
putting on the Guard and the Reserve, is that the population as 
a whole maybe is getting better educated because of that level 
of deployment.
    Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Platts.
    We will begin another round of questions.
    I wanted to talk more about the civilian degree issue, too. 
Give me some practical--your practical thoughts about how it 
would work if you are all recommending that that be increased. 
And I assume you mean increased in fairly large numbers. So, 
you know, what kind of numbers of people would you be talking 
about?
    I assume this would primarily be master's degree levels, 
but some Ph.D.s. Would there be like a list of schools that 
would be considered acceptable? I think you all say civilian 
degree at high, you know, quality institutions. Would there be 
a list of kind of approved colleges, universities that the 
military would have? Would there be a list of fields that it 
would be in?
    You all are advocating in terms of broadening of experience 
and visions and all. But there are some very narrow graduate 
fields, you know. You can get into a very specific field of 
advanced mathematics or chemistry or information technology. 
Give me your ideas--and we will start with you, Dr. Murray--on 
some of the specifics of how you would flesh out that in terms 
of numbers and expense and all.
    Dr. Murray. The only place where I have real experience 
with that is the Army at West Point. Because Dr. Allan Millett 
and myself, running the military history and strategic studies 
program at Ohio State for a 20-year period, there was the 
history department at West Point had a very clear list of 
institutions that they regarded as being first class in 
military history or western European history or American 
history. And the officers were given latitude in picking which 
institution they went to, but they were constrained, and they 
had to get accepted at the institutions.
    Given the quality of the officers--and here I think one 
isn't really talking about sending the entire cadre of Army 
captains to graduate school. I think it should be an elite 
program. I recommended to General Mattis when he was down at 
Marine Corps Combat Development Command (MCCDC) that the 
Marines try a program for captains, and maybe six or seven a 
year to go out to get a Ph.D. and then come back into the 
Marine Corps after two years.
    Dr. Snyder. The Ph.D. I think all of us would recognize 
would be a fairly small number. But if you are talking about 
master's degree programs--you are advocating master's degree 
programs at civilian institutions, I assume those would be in 
much greater numbers. What kind of numbers?
    Dr. Murray. Again, I don't think you want to send a huge 
number out. And, again, the people who I would send out, I 
would send them all out to get master's, and some of them 
within the two-year confines of certain universities get the 
ABD when they walk out. And I think West Point is a wonderful 
example. They are then brought back to do a two- or three-year 
tour at West Point teaching their specialty. The services could 
bring these officers back to any number of institutions for a 
two- or three-year payback.
    The crucial element General Barno mentioned is they 
absolutely must not be punished for--and there is an element in 
the service cultures that somebody who has gone out, gotten a 
Ph.D. or a master's degree for two years and then taught for 
three years is no longer qualified to be an outstanding 
officer. And, you know, H.R. McMaster is an example of how 
stupid that approach is.
    Dr. Snyder. Would you have some restrictions on what fields 
they could go out and get the master's--would that be a list of 
approved subject areas?
    Dr. Murray. Yes. I think so. I think there are certain 
things that the military is interested in, should be interested 
in. And this, of course, includes hard sciences as well. I 
think it is absolutely essential that some officers go out and 
get master's or Ph.D.s in engineering and et cetera.
    But, again, I think it should be guided by both the short-
term interests of the service--and, for example, the Navy would 
right away say, well, we are to send everybody to get an 
engineering degree. And yet if you look at people like Admiral 
Stavridis, Admiral Blair, very clearly they are individuals who 
have gotten degrees in something other than hard sciences and 
profited by it.
    Dr. Snyder. Dr. Williams, do you agree that the numbers 
even for the master's degree program would be small?
    Dr. Williams. I don't think it would have to be for 
everyone. And I think the nonresidential programs do serve a 
need. You can't send the whole military to graduate school. 
That is not feasible in a whole lot of dimensions.
    I have no problem with outlining what courses of study 
would be most acceptable for the military to pay for or to give 
time off to do. And certain locations. Obviously, some of the 
great programs out there. And I think there would have to be 
some flexibility for someone who proposes something especially 
interesting and useful, to make exceptions. I mean, for a 
student to be able to go study with Charlie Moskos back in the 
day at Northwestern was a great idea, even though there are 
lots of places at Northwestern that would not at all be useful 
for a military person to go to.
    In the case that Dr. Murray was talking about, if you know 
your follow-on assignment, they can have some impact on that. 
In the case of West Point, it is perfect. Because they know 
what they want, they know where they have had success, and it 
works very well.
    But I would reinforce the comments made. You can't punish 
these people because they were out playing at an educational 
institution rather than standing on the bridge of a ship at 
zero dark 30 with binoculars around their neck. Because every 
week you are at graduate school it is a week you are not doing 
that.
    Dr. Snyder. Any comments on that, General Barno?
    General Barno. I have got several thoughts on this. And I 
note in my written testimony that I think that it ought to be 
focused and probably incentivized for officers that are 
promoted early, that that should be an expectation maybe not 
the first time but from then on anyone who is promoted early 
ought to have gone to a civilian graduate school. And the 
service ought to design a program to do that.
    Interestingly, the Army offered----
    Dr. Snyder. Excuse me for interrupting, but, by putting an 
incentive for that, that makes the numbers really, really high 
in conflict with Dr. Murray.
    General Barno. No, that is about five percent of each year 
group, roughly. It is quite small.
    What is interesting to me in this is that the Army, to its 
immense credit, in my judgment, about five years ago, four 
years ago, put a program in place to offer top-notch up-and-
coming Army captains a two-year option either to go to graduate 
school with no follow-on assignment to West Point that would 
take them away from the field for even more years. They could 
go out, they would go to graduate school, they would sign up 
for a little bit of additional required duty in the Army, but 
it was designed to retain high-quality officers.
    And anecdotally is what I heard from that is that, after 
running it for three years, it was undersubscribed, and it was 
not attracting the top tier of candidates. Just the opposite of 
what you would expect.
    And this gets into this issue of the muddy boots Army at 
war right now. And we all recognize that the Army is in a major 
fight. The Marine Corps, the services are all fighting in Iraq 
and Afghanistan, so the expectation has been that I am either 
back here getting ready to go to Afghanistan as a captain or I 
am in Afghanistan or Iraq as a captain. And if I am out at 
graduate school in a time of war, this is even more 
debilitating for officers' careers than it would be under 
normal conditions. So we have got to again change the senior 
leadership mind-set of what is most valued.
    And I note in my written testimony as well that, you know, 
in talking to some individuals that are involved in one-star 
selections here recently, those repeat operational tours are 
what counts.
    Dr. Snyder. A bias towards tactical----
    General Barno. Absolutely. Absolutely. When we take people 
out of the pipeline for even two years of graduate school in 
the midst of a war, and that is not really incentivized by a 
requirement that I can't get promoted to early promotion to my 
next rank if I don't do this, if we don't connect that as 
almost a requirement, then we really have devalued that in 
force.
    A final note is that I think West Point assignments are--
and I saw this even when I was a captain--are broadly looked 
down upon inside the operational career force. That those are 
viewed now as assignments that you will pay the five-year price 
to go there following graduate school, but you will come out of 
there and you won't be a commander any more. You will be a 
specialist. You will no longer be competitive for command. You 
won't be the Dave Petraeuses of the future or the Marty 
Dempseys of the future because the system simply isn't going to 
give you that latitude. Especially among your peers, again, who 
have spent the last five years rotating back and forth to Iraq 
and Afghanistan.
    So we have created, particularly in the last 9 years or so, 
an absolute muddy boots force, the results of which may play 
out in some not happy ways for us 10 or 15 years down the road 
in terms of who is available to be our senior leaders.
    Dr. Murray. Let me add something, because I think this is a 
very important point. There are some exceptions. H.R. McMaster 
is a very good exception who not only was the outstanding 
squadron commander at 73 Easting, destroying with his squadron 
an entire brigade of Iraqi tanks, went to the teaching program, 
graduate program at University of North Carolina, wrote a 
dissertation, wrote the finest book on how we got into Vietnam, 
a sad story indeed, and then went out to I think it was al-
Anbar or one of those places out there--no, north of that--did 
an extraordinary job as cavalry regimental commander out there 
and had a very difficult time getting promoted to general even 
with this extraordinary record behind him.
    So I think we are dealing here with a very difficult 
problem; and it goes across all the services, not just the 
Army, a cultural problem that somehow you haven't been doing 
the right thing if you have been out in school or teaching at 
West Point. And I think that is very, very deleterious; and I 
don't know what to do to change it.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, in our last question we talked a little bit 
about how do we emphasize the interagency experience a little 
more in PME; and some of the feedback you all said was we want 
to make sure we get folks there from the different agencies, 
from State, from USAID there as instructors. And I think not 
only in addition to that, we probably ought to get them there 
also to study.
    The question is, are there enough qualified people within 
those agencies to be instructors or to get to the PME 
experience to study? And, if not, what do we do within those 
agencies to create policies or initiatives to direct people 
into the PME system both to instruct and to study, to sort of 
round out that experience?
    And I know we have heard from some other folks in the past 
that there is some inertia there within the agencies that say, 
hey, listen, that is outside of our bailiwick. We don't want to 
participate. They don't see value in it. But it seems like to 
me if we are going to really round out this experience we have 
to have that, and we have to find ways to make that work in a 
way that the agencies actually want to make that happen, rather 
than to say or internally to say, well, yeah, you can go that 
path, but, guess what, it is not going to help you 
professionally down the road?
    General Barno. Well, perhaps a couple thoughts.
    My expertise in the other agencies is not deep at all. But 
having worked with them in the field, I think that one of the 
great benefits the military has that perhaps could be mandated 
in the other agencies of government is to at least establish a 
small schools account of officers, of 10, 15, 20, whatever the 
right number is, that that agency is required to keep in a 
school environment. And, theoretically, you could build their 
end strength, their resource end strength up to that level.
    State Department actually did this when General Powell was 
Secretary of State a few years ago. But the immediate expansion 
of State requirements consumed all those people, and they went 
out right out to Iraq and Afghanistan. So they had the right 
idea, they got it all the way to fruition, and then they were 
consumed by a new, unexpected requirement.
    And in many of these other agencies I think it could be a 
much smaller number. But the fact that the number today is zero 
gives them no incentive. Even if they were to establish a 
school float, if you will, of 10 people to attend schools on a 
regular basis, that would help give them the top cover to be 
able to do that.
    On the instructional side, I tend to think that was almost 
too hard for them and that perhaps retired Foreign Service 
officers, retired AID employees at the senior level could be 
recruited in to do some of the school work. But I think from 
the student standpoint you have to build that institutionally 
into their organizations.
    Dr. Williams. You know, we talk about how hard it is to get 
all the services on board and sending the best people to joint 
schools and then rewarding them when they get out of it. I 
mean, how much more difficult is it for people looking at their 
own career when they are outside of the military thinking, 
well, do I want to send this person here, and why would I want 
to go there? Because I am going to be hammered when I get home 
in my own agency. That is a problem. I don't know how to get 
into that one.
    Dr. Murray. I would argue that the problem goes even more 
deeply than that. That, for example, the Army War College, 
which I have had the most recent experience with there, and 
there is an extraordinary number of colonels who come in or who 
eventually retire there, but who have been the West Point route 
or some other route and have a Ph.D. in military history or 
strategic studies or international relations, an outstanding 
academic background, and the problem is that if you bring 
people in from the CIA or from Treasury, whatever, they have no 
academic background at all. And so you are dealing with then 
you are almost making the interagency process look like a 
catastrophe.
    Because the people who are brought in, unfortunately, my 
experience has been that the various war colleges--and maybe it 
has changed now--is that the agencies don't pick their best 
people to go there. Some of them do go there, but it is usually 
idiosyncratic or somebody just simply is interested and wants 
to do it.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Dr. Murray, we met a student at one of the 
colleges from the State Department who was there spending I 
think it was almost a full academic year, but he was a State 
Department security guy. And he was there and he was a good 
person, he was a very good security guy, but they kept coming 
and asking him to comment on foreign policy. And he said, I am 
the security guy. But that was the problem that the State 
Department has currently with their lack of a float.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Maybe just following up on that question, because I think 
that one of the frustrations that we have certainly had is that 
when it came to the individuals serving over in Iraq and 
Afghanistan, the professional military education as well as the 
training that people had received put them at such a much 
higher level than State Department personnel and others that 
were coming from other agencies in terms of their, you know, 
their breadth of experience really at that level.
    And what you are saying about the interagency, that in fact 
people coming from other agencies don't have the academic 
background to be able to actually fit in and to be able to make 
a contribution--I mean, I think that is what I heard you 
saying. And that is interesting. And I am just wondering, how 
do we mitigate that? What are your thoughts and ideas about 
that?
    Dr. Murray. I am not sure there is an answer. I think there 
is an additional problem to the one you just raised, which is 
the fact that military officers from the beginning of their 
career are used to running things, running a large group of 
people. Even a platoon commander is going to have 40 or 50 
people who he is responsible for. And he has got to organize 
his training. He has got to deal with seniors in a very complex 
environment.
    And that is not simply true of the experience of officers 
in other agencies. They don't run large groups. And they are 
staff. They are part of a bureaucracy which is very important 
and essential, and so they are coming from a handicap from that 
point of view.
    And it is very difficult. I don't have any answers. But it 
is well worth sort of underlining the difficulty, because 
somebody needs to start thinking about addressing the problem.
    Mrs. Davis. Yeah. Anybody else have any thoughts?
    General Barno. I think it is a huge issue. The fact that we 
are having to put people there at all doesn't make it any 
better. The only mitigating possibility could be to try and 
either encourage or require those participants to have served 
in the field in that setting with military officers so that at 
least they have an experiential background, even if they don't 
have an academic background, to be able to contribute to the 
dialogue at the senior level that is going to go on at the War 
College. And there are going to be an increasing cohort of 
those people out there in all these agencies. So I think 
tapping them then for follow-on school assignments could be 
quite valuable.
    Mrs. Davis. Yeah. Part of it is the openness of the 
services as well. Because I think that, again, this is really 
more at a different level rather than education, but clearly 
the military has a much deeper bench than the civilian 
community does, certainly than the State Department does, and 
so people can float more easily. You don't have as many people 
to pull.
    And I thought your idea about trying to preserve a number 
of positions that actually are not just--it is almost not just 
for their own education, but it is also for their opportunity 
to provide their perspective to others. I mean, they are in a 
very different role when they are doing that; and we need to 
try and facilitate that process. I am not sure of the answer 
either, but I think it is an important one.
    I wanted to just ask you briefly about the role that 
professional military education has in ROTC. I mean, typically, 
that is a recruiting and perhaps a superficial level of 
training in some ways that ROTC has had a role in that way. I 
know just speaking from my own experience with a number of ROTC 
instructors, wonderful, wonderful people, but probably were not 
able to play a broader role in terms of the education of many 
of the men and women in ROTC.
    Do you think that we should be focusing more on that? 
Should DOD and should the schools be trying to use that as a 
much stronger vehicle for helping to at least inspire young 
people, whether they actually go into the service or not, but 
learning more command and control structures, how to get things 
done, whether it is a national security, homeland security? Is 
that a role and would that be of benefit to you as you see 
young people coming into your schools as well?
    Dr. Williams. I have a vested interest in this, I guess. I 
did teach at the Naval Academy, and I came from OCS myself. But 
I worked closely with the Navy ROTC (NROTC) program at 
Northwestern University, because Loyola students go up there on 
a crosstown arrangement. It is an excellent program, and the 
people that go through there are as fine as any I saw at 
Annapolis. They have a very rigorous and a very serious 
military component to their program; and they have required 
courses that put them in my classes, for example, and other 
classes at Northwestern that sort of meet the requirements I 
would hope that they would be doing. So it is an excellent 
program. I strongly support it. Plus it has the civil-military 
implications I discussed earlier.
    Mrs. Davis. I am glad to hear the strength of the programs 
that you have seen. I suspect that is probably not the same 
throughout the country, although there are exceptional 
programs, yeah.
    Dr. Murray. Let me just add something, too, because I think 
it is a rather interesting perspective. And it may well be out 
of date because I retired from Ohio State in 1996. What I think 
Allan Millett and I noticed over that span in terms of ROTC 
programs is there were outstanding officers sprinkled here and 
there throughout the various cadres. But the only service that 
consistently placed outstanding officers and only outstanding 
officers in positions of the ROTC was the Marine Corps. 
Consistently, Marine officers, the POIs were outstanding. In 
fact, sort of along those lines, with the huge number of 
officers that came through Ohio State to teach in ROTC, the 
only people who got advanced degrees in military history and 
strategic studies were the Marines, which I think says a great 
deal about the level of professionalism that the Marines--in 
terms of the selection of officers. And my sense is that in the 
other services it is not regarded as a crucial key billet, 
whereas I think very clearly the Marine Corps regards it. And 
it should be. It should be.
    General Barno. If I could just add, I think it absolutely 
needs to be reinforced. And it is the production mechanism for 
the majority of officers. Although in the Army it is beginning 
to be outsourced or outcompeted by officer candidate school in 
the last couple of years. And this issue of the quality of the 
cadre who lead the ROTC detachments is absolutely essential. 
Those are the role models, those are the motivators, those are 
the recruiters that bring the best people into these programs. 
And in the environment we are in today, I can think of no 
better place for someone who has come out of combat in one or 
two or three tours to go and to mold young people and to have 
that experience and be with them for three years or so to be 
able to get them to come into these programs. Because that is 
going to be the future high-quality officers we are going to 
have.
    Now, that, too, has been stressed by a variety of factors. 
In the Army, a number of ROTC detachments, I think most ROTC 
detachments now have at least one wearing a uniform on the 
detachment who is a contractor, that they have taken a lot of 
the deputy professors of military science and contracted those 
positions out. So that is probably not in a lot of ways a 
helpful development in terms of the ability for those people to 
be role models for young 18-, 19-, and 20-year-olds. They are 
not in the force anymore. They are not going to be as energetic 
as someone who is a 32-year-old captain just out of two tours 
in Iraq. So I think we have to look very carefully at that.
    And then keeping these people, keeping these quality 
graduates beyond that, we haven't really talked about that in 
the hearing today. But this issue of how we preserve this 
talent once it comes into the force, particularly the 
intellectual talent, and not let it leach out of the force at 
year six, year seven, year eight, year nine, I think that is 
something that is part of PME indirectly, it is part of this 
professional education system and the development system of 
officers that we don't want to have the wrong officers at the 
year 20 or 25 mark out there because all the real high-powered 
officers have gotten out because they have gotten discouraged 
because of their prospects.
    Dr. Snyder. Gentlemen, we appreciate you being here. Those 
buzzers are we have a series of votes going on. We may have 
some questions for the record, if you would respond to them in 
a timely manner.
    Let me suggest to you, too, if there is anything 
additional, written comments that you would like to make, would 
you please send that to us. And we will consider this an open 
question for the record to amplify anything you would like to 
talk about today.
    But thank you for your service here today and for all three 
of your long careers for helping our country.
    We are adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           September 10, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. What lessons can be gleaned from current and 
foreseeable contingencies for educating officers? How should the PME 
schools vet lessons learned from current operations into their 
curricula?
    General Barno. There are a myriad of lessons that today's 
contingency operations in Iraq, Afghanistan, and globally can provide 
to our PME programs; likewise, the prospects of other ``foreseeable'' 
or unforeseen contingences should help us assess where we are today and 
how we can better prepare for an uncertain future. Army Colonel Joseph 
Buche, currently a fellow at the Center for New American Security has 
written that while training can play a central role in preparing us for 
well-understood threats, only education can help our leaders truly 
prepare properly for threats characterized by deep uncertainty--I 
wholly agree with this premise. Today's operations, especially in the 
field on counter-insurgency, have now been well captured in military 
doctrine (e.g., the Army-Marine Corps Field Manual 3-24). This 
``institutionalization'' of COIN will now create spillover effects in 
many other military arenas, which in concert with focused deployment 
training for units about to embark to Afghanistan or Iraq, will instill 
a solid depth of understanding in these sorts of wars. I am confident 
that the military school system will rigorously incorporate the 
tactical (battlefield) lessons of current operations into their 
curricula; I am much less sanguine that they will even attempt to 
understand and incorporate the operational and strategic ``lessons 
learned''--in fact, I have seen little to no effort in this arena. Even 
more troubling is the likelihood that today's wars will only partly 
resemble tomorrow's, and that leaders will not have sufficiently 
``opened the aperture'' of minds strongly influenced by current 
experiences and training to the wider prospects for rapidly evolving 
forms of war. Broad and demanding educational experiences--either in 
civilian graduate institutions or in improved senior level military 
colleges--are essential prerequisites to future success in America's 
wars. Unfortunately, there is too little emphasis accorded to the vital 
importance of this level of military education. The efficacy of today's 
PME to produce skilled leaders comfortable not just in joint 
operations--the focus of the 1986 Goldwater Nichols legislation--but in 
national military and national security strategy has been largely 
unexamined.
    Dr. Snyder. Is the PME system doing enough to integrate PME 
curricula, emphasizing joint, interagency, intergovernmental, and 
multinational (HIM) concepts? How should lessons incorporating these 
concepts be extended to junior officers to best prepare them for 
engagement in combat, security, engagement, and relief and 
reconstruction operations?
    General Barno. I believe that the PME system has done relatively 
well in attempting to integrate the concepts of JIM into today's 
curricula, particularly in light of the lack of structural or 
conceptual integration of these disparate entities in the real world! 
Increased civilian participation in PME establishments would 
significantly strengthen this exchange of ideas and experience, and 
might require some directed ``educational float'' within the civilian 
departments of government to support educating this population as well 
as connected them in PME to their military counterparts. We no longer 
have the luxury of sparing civilian leaders from the demands of working 
in these organizations and we need to address ``junior'' civilian 
education; however we should avoid adding additional JIM curricula into 
junior level officer schools that must continue to focus on tactical 
and operational unlikely subjects.
    Dr. Snyder. Is the only way to achieve the Skelton Panel Report's 
recommended joint (and now increasingly interagency, intergovernmental, 
and multinational) acculturation through in-residence education or 
should distance or blended learning opportunities be more broadly 
embraced by the Services?
    General Barno. Beyond in-residence education, I believe that 
providing more cross-departmental assignment possibilities would help 
each department's officers gain a better understanding of the 
challenges, capabilities and limitations of their colleagues across the 
government. These experiences should also have a structured educational 
component (such as visiting senior leaders, seeing different parts of 
the department's responsibilities) so that the experience is as 
broadening as possible. Characterizing and structuring such assignments 
as ``intergovernmental fellowships'' might be a way to highlight their 
importance and encourage a selective application process.
    Dr. Snyder. In your testimony you stated that ``fellowships (with 
very few exceptions) should not be a substitute for SSC [Senior Service 
Colleges], but an additive experiential development opportunity.'' 
Would you please elaborate as to why there shouldn't be substitutes?
    General Barno. The recent nearly unconstrained expansion of 
fellowships at the Senior Service College (War College) level--
especially in the Army--diminishes the number of highly competitive Lt 
Colonels and Colonels who can attend the structured War College (Joint 
or Service) programs and sometimes provides little by way of a 
substitute in comparable fields. While all fellowship attendees must 
attend the JPME 12 week program at Joint Forces Staff College in 
Norfolk, this often occurs years later and does not in itself provide 
any educational exposure beyond planning joint operations; national 
military and security strategy is not included in any depth. The 
second-order effects of these proliferating programs is that the 
competitive quality of the officers attending service war colleges is 
declining; to fill slots left vacant by fellowships in the Army, for 
example, the service is dipping deeper into the reserve components and 
non-operational career fields with a resultant notable dearth of active 
duty combatant arms commanders in war college seminar groups this year. 
The quality and rigor of fellowships vary widely; certain fellowships 
(e.g., Harvard's program) have been in existence for years and are 
rigorous and productive, others (to include several inter-governmental) 
have little or no academic component and can become simply ``work'' 
programs using ``borrowed military manpower'' to fill a seat vacated by 
an absence. This approach in particular provides very little in the way 
of educational development for the ``fellow'' but simply offers the 
experience of how another organization works from within. These type of 
programs in particular ought to be separate developmental opportunities 
characterized as ``experiential'' rather than ``educational'' and be 
viewed as an additional opportunity above and beyond SSC schooling--not 
as a substitute. Broadly, one would expect that the threshold of 
educational achievement required to graduate from a senior service 
college-level program would be rigorous and demanding; and if so, a 
significant number of fellowships on the books today should be 
excluded. Unfortunately, there is no such threshold established as to 
what specific knowledge, skills and attributes attend to a graduate of 
SSC fellowships, so virtually anything goes.
    Dr. Snyder. How should officers be selected for in-residence PME 
and JPME? Would you use any kind of quality cut? How would you decide 
who goes to the joint PME institutions, the National War College, the 
Industrial College of the Armed Forces, and the Joint Advanced 
Warfighting School (JAWS), in residence?
    General Barno. Selection for in-residence PME and JPME should be 
rigorous and competitive to reinforce the highly valued nature of these 
programs. Non-resident programs of continuing education should once 
again be employed primarily for those who were not as competitive for 
in-residence selection--as was the case at least for the Army until 
about 2004. Approximately 50% of each ``year group'' should be able to 
attend in-residence PME; this should perhaps be slightly higher for 
those in the command-track/operational career fields given the nature 
of both school curricula and the needs of that population. One would 
this reasonably expect as a result that nearly 100% of those that 
command at the Lt. Colonel level should have attended in-residence 
intermediate PME. The most significant aspect of returning to this 
system would be to increase the prestige and importance of attending 
full-time in-residence PME. Spending ten months devoted to education in 
the art and science of war at intermediate and senior levels alongside 
carefully selected peers from sister services and agencies creates an 
intellectually stimulating environment of shared learning with those 
very officers and civilian interagency leaders with whom one will spend 
the rest of a professional career. These officers at intermediate and 
senior levels should be identified by competitive selection boards 
similar to those used to screen for command today: again, this harkens 
back to the model used in the Army post-Vietnam until the mid-2000s 
with much success. The services could continue to ``slate'' attendance 
at both joint and service schools from within this overall competitive 
selection; that is, the board selects the individual and the service 
``slates'' them to the appropriate service or joint school, based in 
part on individual preferences. The protections built into the quality 
thresholds extant in JPME schools would ensure those institutions 
continue to receive an exceptional quality of student; that has been an 
unchallenged outcome of establishing this requirement in the 1986 
legislation and will remain so.
    Dr. Snyder. Your testimony asserted that: ``no officer in a command 
track should be promoted below the zone to lieutenant colonel without a 
civilian degree from a first tier institution.'' How should the 
Services' personnel systems identify and select the best candidates to 
pursue these civilian programs? How would you balance command potential 
versus intellectual qualifications?
    General Barno. One of the pernicious dangers of the current system, 
particularly in the Army, is that there is increasing potential for the 
most intellectually gifted officers, beginning at the rank of Captain, 
to be weaned away from the operational (or ``command-track'') career 
path in order to become specialists who will neither command nor in 
most cases ascend to senior rank. If this trend takes hold, many of our 
future commanders may become among the least broadly educated and the 
least intellectual members of the force--hardly a recipe for sustained 
military success. In some ways, this outlook harkens back to the 
rightfully maligned British interwar system wherein the ``regimental 
officer'' was seen to be most highly esteemed by his peers--in part, 
because of his utter lack of outside education and experience beyond 
``the regiment.'' The current Army Officer Personnel System 
inadvertently supports this type of model for combat arms and 
operational track officers. It is a ``single track'' system as opposed 
to the ``dual-track'' system that produced the current generation of 
Army leaders. Those in the single track operations career field today 
are expected to spend all of their time either in the field with troops 
or in operational or training staff billets, such observer controllers 
at the Army's Combat Training Centers. Despite the recent promise held 
out by the Army's so-called ``Pentathlete'' program under then CSA 
General Pete Schoomaker, graduate education for the most competitive 
operations career field officers has faltered. The ``Pentathlete'' 
concept posited that Army officers should aspire to be, must be multi-
skilled warrior-diplomat scholars and seek out a broad diversity of 
career and academic experiences. Unfortunately, the demands of two wars 
and the competitive nature of repeat combat assignments have caused 
many of the most highly talented and competitive officers to avoid time 
``out of the line.'' Those that seek out civilian graduate schools are 
often en route to teaching assignments at West Point, a route that more 
and more commonly now leads officers to leave their basic branches and 
convert to ``specialty'' career fields. These deeply educated captains 
and majors thus often do not return to the operational force but become 
single-tracked as ``Army Strategists'' or ``Information Operations'' 
gurus. Incentivizing operations/command track officers to attend 
civilian graduate schooling must take many forms, including citing it 
as a waypoint institutionalized in officer career development roadmaps. 
But to put teeth in the system, it should also be written into 
selection board guidance as a pre-requisite for a second (not first) 
below the zone early promotion. This would provide additional time for 
officers to reach this goal--at least 12-14 years. Regarding ``command 
potential'' as intellectual qualification, I do not believe that 
command selection should be somehow tied to any set of intellectual 
criteria--performance and potential for future contributions in command 
of troops should remain the most important criteria. That said, we 
should strive to increase our numbers of well-educated commanders--this 
must be a talking point for senior leaders, and most importantly--must 
be a serious criterion for selection to flag rank. Education for 
strategic leadership and dealing with wicked problems may not be 
essential for battalion and brigade commanders, but it is vital for 
flag officers. Our system, paradoxically, will serve up the best 
tacticians to be selected for flag rank--where we will expect them to 
magically re-create themselves as strategic leaders. We must find, 
educate and retain intellectual talent in our commanders--for it is 
from this group that our senior-most leaders will derive.
    Dr. Snyder. How would you alter force development policies (in the 
Services' personnel management systems and in the PME system) to 
address the challenges associated with the joint, interagency, 
intergovernmental, and multinational operational environment?
    General Barno. Given the increasing demand for officers to serve in 
developmental assignments and receive educational experiences, there 
may be a need to provide additional officer authorizations to ensure 
sufficient officers can receive these experiences without impacting the 
fill of operational billets in the force. This ``buffer'' of officers 
above unit and staff billets is absolutely essential to achieve the 
goals of dominating the intellectual battlefield; the uncertainty of 
the future environment argues for greater numbers available for 
schooling, not fewer. This is also manifestly needed at flag officer 
rank.
    Dr. Snyder. Considering the demands of the twenty-first century 
security environment, does the United States need more theoretical 
strategists (i.e., idea generators) than the few contemplated by the 
Skelton Panel Report? Do we need more applied strategists (i.e., 
practical implementers) than we did twenty years ago?
    General Barno. We need more of both, and we need far more of both 
to populate the ranks of our flag officers. Again, our system generates 
the very best tactical commanders to be teed up for selection to flag 
rank. We then continue to pick from this very small cohort for all of 
our flag positions--and ultimately, our three and four-stars as well as 
other positions with a myriad of duties requiring strategic leadership 
understanding and skills. If a service picks forty brigadiers per year 
(Army) or ten (Marines), that is the entire bench from which their 
future four-stars are selected from. In the Army and Navy, that bench 
is further reduced by internal selections for division (Army) or battle 
group (Navy) command at the one/two-star level. From this limited pool 
comes virtually all of the service four-stars 5-8 years hence. Thus the 
importance of selection for the first star becomes overwhelming, as do 
the internal thresholds thereafter which may artificially constrain 
even among the broader flag officer population who may be competitive 
internally for four-star rank.
    Dr. Snyder. How might the PME system better enable strategists to 
become fluent in geopolitical trends and potential causes for conflict 
in the next quarter century?

    <bullet>  Trends in: demographics, globalization, comparative 
economics, energy supply and demand, food production and distribution, 
water scarcity, climate change and natural disasters, pandemics, cyber 
connectivity, and the utility of space; and

    <bullet>  Contexts for conflict like: competition with conventional 
powers, regional influences, weak and failing states, nonstate and 
transnational adversaries, the proliferation of WMDs, technological 
advancements, strategic communications, and rampant urbanization.

    General Barno. Strategists (either full-time specialists such as 
the Army's FA 59 program or future generals) absolutely need civilian 
graduate education to fully hone their skills and expand their thinking 
to the broadest dimensions of strategy in a non-military, 
intellectually diverse academic environment.
    Dr. Snyder. How should rigor be defined within the PME system in 
the future? Should the Skelton Panel Report's notions of rigor (i.e., 
challenging curricula, student accountability, and measurable student 
performance) be updated or expanded?
    General Barno. Rigor in PME at Command and Staff and War College 
programs should be re-examined. Some schools do this well through an 
environment more akin to a civilian graduate program with competitive 
grading and characteristic graduate programs (Naval War College, for 
example). In other programs, grading is pro forma and has no impact on 
the student for good or ill; no one can ``fail'' in effect, regardless 
of academic performance. There is also an argument to be made that 
academic performance ought to be a ``plus'' for future promotion 
(including early promotion) and assignments; today, it has little or no 
impact on either.
    Dr. Snyder. Your testimony asserted that we have not invested 
adequately in the education of our senior military leaders, especially 
with regard to strategic thinking. You essentially concluded that PME 
ends just as flag and general officers reach the apex of leadership 
responsibility. What ``measurable educational objectives'' should we 
apply to ensure that flag and general officers receive rigorous PME? In 
your testimony, you mentioned the United Kingdom's program for 
educating flag and general officers as a potential model for reform. 
Would you please describe the UK model and its potential benefits?
    General Barno. Given the fact that I am not an academic by trade, 
and that most of my time in uniform has been as a commander, I am ill-
suited to define ``measureable educational objectives'' for any level 
of PME. That said, I believe that flag officers should be held to a 
high post-graduate level standard of writing and speaking; that their 
performance in one-on-one interviews and persuasive conversations 
should be evaluated; that their knowledge of war and warfare at the 
strategic level and underpinnings of conceptual understanding of war 
should be assessed; and that each of these objectives should be 
facilitated by a robust course content in an academically challenging 
higher command and staff course of 6-10 months duration, offered to 
Major General/Rear Admiral-selects before their first O-8-level 
assignment.
    This course could be modeled upon the British Higher Command and 
Staff course. Although the British course is designed for brigadiers, 
the advantage of an O-8 select course in the U.S. would be a narrowing 
of focus and of students--no more than about sixty O-7s are selected 
for O-8 each year, thus creating a precise cadre of future three And 
four-star officers. The Higher Command and Staff Course conducted by 
the British Joint Services Command and Staff College, is a 14-week 
course for officers (O-6--O-7) destined for higher joint command and 
senior staff positions (O-8 and above). The course is primarily focused 
on the military-strategic and operational levels of war set in the 
wider strategic context. The course is intellectually demanding. Graded 
tests, exercises, and a written dissertation are required. Most 
importantly, future assignments and promotions are influenced by the 
official academic report produced by the college. In the final 
analysis, a more robust program, based on the British Higher Level 
Staff College would be of great value to the US PME system.
    Dr. Snyder. In your testimony, you asserted that ``it will only be 
our imagination and intellectual agility, or lack thereof, that will 
determine our success or failure in navigating an uncertain and 
dangerous future'' and that ``[o]nly an educational background that has 
prepared the senior officers of the United States to understand the 
fundamental nature of war as well as the enormous variety of contexts 
within which it may take place can provide officers with the mental 
agility to adapt.'' Would you please elaborate as to how the PME system 
should best support the breadth of knowledge and nimble adaptive 
qualities that you think are required of successful officers?
    Dr. Murray. There are two clear parts to this question. First, I 
believe that the whole system from pre-commissioning through to war 
college in all the services needs to focus more clearly and effectively 
on the fundamental nature of war than is the case at present. Such an 
approach demands a deeper and more thorough emphasis on military and 
strategic history for those officers who are to rise to the senior 
ranks. Thus, study at the staff and war colleges must have war, its 
history, and its present dimensions at the heart of what they teach. At 
present, only the Naval War College and specialist programs like SAW, 
SAAS, and the Army War College's Advanced Strategic Arts Program have 
such a focus.
    The second part of the question, as to how promote the qualities of 
intellect that lead to the nimbleness of mind and ability to adapt, is 
more difficult to answer. I believe that at its heart such an 
improvement in the PME system would demand a more careful selection of 
officers for command level billets--a selection process that would 
place performance in the school house as being as important as service 
in the field for command at all levels. Those officers who excel at the 
staff college level would then receive the opportunity for additional 
educational opportunities in civilian and military (such as SAW, SAMS, 
and SAAS) graduate schools to widen their intellectual horizons. \1\ In 
addition, the services need to select a smaller number of officers at 
the O-3 level before they even reach the staff colleges for serious 
graduate study in strategic studies, military history, and area 
studies. Such changes would demand a fundamental shift in the cultural 
patterns of the services, particularly in their personnel systems as 
well as their career patterns.
---------------------------------------------------------------------------
    \1\ Parenthetically, the Navy needs to create such a second year 
program as a follow-on to the Naval Staff College and support the 
second year programs of the other services with officers who are on the 
fast track to command.
---------------------------------------------------------------------------
    To facilitate such a program I would urge Congress to increase the 
number of O-3, O-4, and O-6 slots (the last strictly for input to war 
college faculty) that each service is authorized with these additional 
slots specifically targeted for officers enrolled in Ph.D. programs 
dealing with military and strategic history or strategic and national 
strategic studies (such as Princeton's Woodrow Wilson School). 
Authorizing ten slots each year for each service (five for the Marine 
Corps) would result in a steady output of officers who were not only 
well educated, but who had intellectual contacts with some of the best 
minds in academic life outside of the military and produce future great 
military strategists like Admiral William J. Crowe and David Petraeus 
(both of whom earned doctorates at Princeton). One might designate 
these fellowships Congressional fellowships with serious competition 
for these places.
    Dr. Snyder. Is the only way to achieve the Skelton Panel Report's 
recommended joint (and now increasingly interagency, intergovernmental, 
and multinational) acculturation through in-residence education or 
should distance or blended learning opportunities be more broadly 
embraced by the Services?
    Dr. Murray. Here, I would suggest that what is need is not more 
education, but better education. Thus, I would argue that sending more 
outstanding officers out to graduate schools early in their careers 
represents a major step in the right direction. Distance education can 
also improve the system of professional military education, but only if 
it is properly resourced, and the record of the services on this issue 
has not been uniformly good. But a first-class distance educational 
system that allowed for smaller, in-residence staff and war colleges 
would provide a substantial improvement both in the quality of the 
student bodies and the faculty at these institutions by allowing a more 
careful selection process of the very best.
    Dr. Snyder. You emphasized in your testimony that the Service's 
personnel system are both outdated and out of synch with the PME 
systems, and you have advocated ``significant reform.'' What specific 
reforms would you recommend to ensure that PME becomes a higher 
priority in the promotion, command selection, and assignment processes?
    Dr. Murray. In the largest sense what is needed is a detailed 
examination by the HASC of the whole personnel system of the services. 
Such an examination would need to go into the kind of detail that your 
committee is involving itself in with its examination of the PME 
system. I am not an expert on personnel systems; I am an educator. But 
there are several suggestions that I am willing to make.
    First, as suggested above, the performance of officers in the 
various schools must play a major role not only in the selection of 
those for early promotion, but in the command selection processes. 
Those who do not measure up as outstanding academic performers in the 
staff and war colleges must be eliminated for command selection, just 
as those who do not measure up in performance in the field are 
eliminated from command selection.
    Second, the attendance at staff and senior service schools must be 
by selection boards.
    Finally, Congress must not only allow waivers to mandates, but 
demand that the service personnel systems utilize such exceptions.
    Dr. Snyder. The Skelton Panel Report considered faculty as the 
determinant factor in quality education. What policies would you 
suggest be implemented to ensure that the highest quality civilian and 
military faculty and senior leaders are assigned to the Services and 
joint PME institutions?
    Dr. Murray. Faculty along with the nature of the curriculum is the 
basis of excellence in any academic program. Unfortunately, while there 
have been considerable improvements in the faculty over what was 
typical in the late 1980s, there remains considerable room for 
improvement. There are a number areas that need improvement:
    First, there is too much emphasis on academic credentials instead 
of academic and teaching excellence in the selection of faculty. This 
has been driven by the desire to give students attending staff and war 
colleges master's degrees. This has added an entirely unnecessary 
burden on selecting outstanding faculty.
    Second, the service personnel systems have consistently refused to 
give waivers to those applying for programs to earn a Ph.D. in a 
civilian institution in order to teach at a war college (and then have 
sufficient time for a pay back tour). Here the competition for such 
slots should be open to all O-6s regardless of the time they have 
remaining until retirement with the understanding that they will serve 
the necessary years beyond 30 to satisfy the requirements for pay back.
    Third, a number of staff and war colleges have adjunct faculty not 
only to teach in distance-learning programs, but to augment special 
programs like ASAP at the Army War College. The whole payment system 
treats distinguished professors and academics (like Rick Atkinson and 
Eliot Cohen) as well as other serious contributors to PME from the 
outside as if they were making widgets for F-22s. Congress needs to 
give the war and staff colleges the latitude to pay such outside 
professors and augmentees as special cases.
    Fourth, if the United States is going to possess world-class 
faculties at its PME institutions, then it needs to provide them not 
only with salaries above those in the Title 10, but the manning levels 
to allow their faculty to have sabbaticals to expand their knowledge 
and understanding of war and strategy which in turn will contribute to 
the knowledge of these difficult topics they impart to their students.
    Finally, let me note that there is a serious impediment to the 
bringing on board of world-class faculty in the power that service and 
joint personnel offices exercise over the hiring of new professors and 
the setting of their salaries.
    Dr. Snyder. Will the future security environment require shifts in 
the way we formulate and execute military strategy? Will it require 
changes in how strategy is taught in PME institutions? If so, can you 
describe these shifts and changes?
    Dr. Murray. Let me stress here that the fundamental approach to the 
study of strategy and policy that the Naval War College developed in 
the early 1970s under Admiral Stansfield Turner remains the clearest 
and deepest examination of strategy that has ever been developed. Some 
of our greatest academic institutions (Yale and Ohio State) have based 
their grand strategy courses on that of the Naval War College. What 
needs to change is that the other PME institutions should come up to 
the same benchmark. Humankind has always lived in a world of change; 
but the fundamentals of human behavior remain the same. We do not need 
new gimmicks in the study of strategy. What we need is not to forget 
the past. We have repeated all too often in my lifetime the mistakes 
that previous generations of civilian and military leaders have made. 
And we should not forget George Marshall's comment in an address at 
Princeton in 1947 that if you want to understand the strategic 
environment, read Thucydides.
    Let me emphasize here that I am not advocating the teaching of 
academic history, but rather using academic history to examine and help 
in understanding the present as well as to think about future 
possibilities. The ``Joint Operating Environment,'' published by Joint 
Forces Command in November 2008 represents an example of how history 
should be used to think about the future.
    Dr. Snyder. Considering the demands of the twenty-first century 
security environment, does the United States need more theoretical 
strategists (i.e., idea generators) than the few contemplated by the 
Skelton Panel Report? Do we need more applied strategists (i.e., 
practical implementers) than we did twenty years ago? If so, what 
percentage of the officer corps would need to exhibit these skills?
    Dr. Murray. There is no way to measure the right number. One would 
be sufficient, if she or he were in the right position. The crucial 
issue is not necessarily to develop theoretical strategists, rather it 
is to insure that those at the highest levels in the American military 
have a thorough intellectual grounding in strategy. And they can only 
gain the insights necessary for such grounding in a deep education in 
war and strategy, gained through the study of history.
    Dr. Snyder. How might the PME system better enable strategists to 
become fluent in geopolitical trends and potential causes for conflict 
in the next quarter century?
    Dr. Murray. I do not mean to be flippant here, but most of these 
can be readily grasped by a coherent reading program of the nation's 
great newspapers (readily available online) and by reading an 
intelligent selection of major news magazines. The hard part comes in 
understanding what such trends might mean. As Joint Forces Command's 
``Joint Operational Environment'' makes clear, humankind has confronted 
throughout history an environment of constant change. We have been 
caught by surprise in the past and we will be caught by surprise again 
and again in the future. Only by having a grasp of what the past 
suggests can we begin the processes of preparing to adapt.
    Dr. Snyder. How should rigor be defined within the PME system in 
the future? Should the Skelton Panel Report's notions of rigor (i.e., 
challenging curricula, student accountability, and measurable student 
performance) be updated or expanded?
    Dr. Murray. The improvement in academic rigor in the staff and war 
colleges has been considerable since the late 1980s, but most of the 
other PME institutions have not come up to the standards of the Naval 
War College or the mark set by the Skelton Panel. Above all, 
intellectual rigor depends on the presence of a first-class faculty. 
The crucial issue to me, however, is that until performance at the 
staff and war colleges becomes a major player in promotion and 
selection for command billets, rigor will remain almost meaningless in 
the development of a military leadership with strategic and operational 
vision.
    Dr. Snyder. Are there elements of rigor that should be standardized 
among all PME institutions? How much discretion would you afford each 
individual institution in defining rigor?
    Dr. Murray. Here I believe that the institutions must define their 
own approach to education. Having watched the services and the joint 
world operate for the past fifteen years, my sense is that should there 
be efforts to achieve uniformity in a common approach, standards would 
fall to the lowest common denominator. The crucial issue is that each 
staff and war college should render to each individual officer's 
service an academic report that has rests directly on the student's 
academic ranking in his class: A ranking that would delineate the top 
10 percent; the second ten percent; and the rest with a clear, rigorous 
examination of each student's strengths and weaknesses.
    Dr. Snyder. You have asserted that the PME system is ``seriously 
underfunded,'' and you have noted that this undermines the ``quality of 
faculty'' at PME institutions. Would you please describe how increased 
funding for PME might alleviate that problem and any other problem for 
which you think funding is the issue?
    Dr. Murray. I believe there is a fundamental mismatch between the 
stated desire of possessing a world-class faculty and the reality.
    First, if you want the best people, then you should be prepared to 
pay them. Equally important, if you expect them to do serious research 
in military or strategic history and issues, then these institutions 
must make sabbaticals available. This, in most cases, will not only 
involve fully paid leaves of absence, but travel funds so that faculty 
members can visit archives, attend conferences, and visit U.S. 
commanders and their staffs not only in the United States, but in other 
parts of the world.
    Second, these institutions need to have the funding to sponsor 
major conferences of leading academics, theorists, strategists from 
around the world, not just from the immediate area, as is so typical of 
what passes for strategic conferences in this town. Travel is 
expensive, but the cost needs to be borne, especially in exposing the 
students to great thinkers from elsewhere than just the United States.
    Third, greater funding is needed for inviting outside speakers to 
address the student body on fundamental issues of military and 
strategic history.
    Finally, I believe that the National Defense University remains 
still part of the Army's budget. If this is so, it should receive its 
own funding line, independent of any service within the Department of 
Defense. Moreover, it should be directly placed, if possible, under the 
Secretary of Defense and the Chairman of the JCS.
    Dr. Snyder. What are your views on the current military and 
civilian leadership and academic requirements for: Presidents, 
Provosts, Commandants, Deans, CAOs, Deans of Students, and Chiefs of 
Staff? Should we adjust any of these requirements?
    Dr. Murray. I can only give the most general of answers, because I 
have been an observer rather than a participant in the PME world for 
over a decade. But in general, I would suggest that most of the 
individuals who head up the staff and war colleges have received their 
appointment not because of their academic qualifications, or because of 
their intellectual interests. Instead, most have been selected on the 
basis of providing them a sinecure before they retire. Let me stress 
that this has not always been the case, but it has been the case too 
often, given the importance of these institutions.
    Moreover, those who are qualified for the job because of their 
interest and qualification, rarely have the time to make major changes 
in the quality and culture of an academic institution. A three-year 
assignment, which is the consistent practice, is simply too short a 
time to make major changes in most cases. Here, it is not so much a 
matter of adjusting requirements, but rather encouraging the 
appointment of senior, qualified general and flag officers to these 
positions for sustained periods of time. And I would recommend that the 
position of president or commandant at the war colleges should be a 
three-star position rather that two stars.
    In conclusion, let me emphasize that I have been honored to 
participate in your effort I would also like to express my admiration 
for your efforts to repair some of the deficiencies that exist in the 
current system of professional military education.
    Dr. Snyder. You concluded in your testimony that, ``maximum 
exposure to rigorous civilian academic standards will strengthen PME, 
better prepare the military to deal with future challenges, and 
strengthen the bonds between the military and society.'' You also noted 
that the military will be increasingly called upon to perform its 
missions among civilian elements both at home and abroad in a new 
``hybrid'' security environment, blending international, transnational, 
and sub-national threats. How should civil-military relations be taught 
within PME curricula to optimize preparedness for civil-military future 
requirements?
    Dr. Williams. The best curriculum for teaching civil-military 
relations in both the military and civilian environments begins with a 
solid grounding in the classics of the discipline, starting with the 
works of Morris Janowitz and Samuel P. Huntington. At the risk of 
omitting other scholars whose work I also admire, Charles C. Moskos, 
Sam C. Sarkesian, David R. Segal, James Burk, Peter Feaver, Richard 
Kohn, Eliot Cohen, Don Snider, Deborah Avant, Moshe Lissak, Bernard 
Boene, Christopher Dandeker, Anthony Forster, and many others come to 
mind as scholars who revised and supplemented this early work in 
important ways.
    Most military officers are familiar with the theories of military 
professionalism of Samuel P. Huntington. These reinforce the dominant 
internal narrative of a professional military occupying a distinct and 
somewhat separate position with respect to civilian society. There 
should also be a deeper understanding of work of Morris Janowitz, 
especially his view that the military is closely related to society--
growing out of it and sharing its values.
    The discipline of civil-military relations is well developed and 
has a rich literature. Much of the best work is found in the pages of 
Armed Forces & Society, an interdisciplinary and international 
scholarly journal dedicated to the study of military professionalism 
and the relations between the military and society. (This journal, 
edited by Patricia Shields, is the official journal of the Inter-
University Seminar on Armed Forces and Society, which I have to 
privilege to chair.)
    Prior to this detailed study, however, officers need to be educated 
in such a way that they are intellectually curious, able to analyze 
complex and ambiguous situations, understanding of foreign cultures, 
and capable of expressing themselves clearly. These are core 
competencies not only of budding strategists, but anyone who will 
conduct military operations in situations where the human terrain is a 
factor and victory is not based on firepower alone. These competencies 
are best developed in highly demanding academic programs based on the 
social sciences and humanities.
    Dr. Snyder. Is the only way to achieve the Skelton Panel Report's 
recommended joint (and now increasingly interagency, intergovernmental, 
and multinational) acculturation through in-residence education or 
should distance or blended learning opportunities be more broadly 
embraced by the Services?
    Dr. Williams. There is no substitute for in-residence educational 
experiences of the highest quality as early in an officer's career as 
feasible given the requirement for specialty training at that stage. 
Education and training go hand in hand, and in-residence training is 
irreplaceable for education. The acculturation recommended in the 
Skelton Panel Report requires face to face interactions with members of 
the groups with whom officers will be called upon to serve. Only in 
that way can members of the various institutions get to know one 
another and understand their respective institutional cultures. It is 
not always true that ``where you stand depends on where you sit,'' but 
institutional factors powerfully affect the attitudes and positions of 
otherwise similar individuals. It would be best for officers to have a 
visceral understanding of these before they work together in a crisis 
environment.
    From a budgetary perspective, distance learning makes a great deal 
of sense; from an educational perspective, it makes less--especially in 
the humanities and social science courses required to develop critical 
analysis and communications skills. Whatever the budgetary 
implications, distance learning does facilitate access to the far-flung 
military population. One could imagine some kind of blended program in 
which fact acquisition--as opposed to acculturation and socialization--
is performed outside the traditional classroom, but the ratio of in-
class interaction to online actions should be as high as possible. Of 
course, a great deal of individual self-study is required for 
professional development before, during, and after formal educational 
experiences.
    Dr. Snyder. Your testimony was very encouraging of increased civil-
military interaction, especially in the academic arena. Would you 
please elaborate on how specific types of scholarly interactions might 
benefit the PME system, and the officer corps as a whole?
    Dr. Williams. There are many opportunities for the sort of civil-
military interactions that would benefit both the PME system and the 
officer corps as a whole:

    <bullet>  Broadly based ROTC programs at our best universities are 
an important link with civil society and provide a diverse infusion of 
new officers.

    <bullet>  Civilian graduate education brings the most talented 
military and civilian students together in the most demanding 
educational settings; it also exposes high-potential officers to 
civilian academic ways of thoughts and to the highest intellectual 
standards and puts a human face on the military for future civilian 
leaders. It goes without saying that the selection process for these 
assignments must be based on individual merit and potential for 
distinguished future service.

    <bullet>  Highly qualified civilian instructors in military PME 
institutions, either on a permanent of rotating basis, bring a bit of 
the civilian education experience inside the military PME system.

    <bullet>  Participation in appropriate academic conferences 
promotes meaningful professional interactions between the civilian 
academic community and the military, to the advantage of both. It also 
stimulates officers to write papers and eventually publish their work.

    <bullet>  Membership in scholarly societies such as the Inter-
University Seminar on Armed Forces and Society provides important 
professional interactions and a network of professional contacts.

    <bullet>  Publication in rigorously reviewed scholarly journals 
ensures a wide audience of expert civilians for the authors' work and 
the publication process generates a great deal of useful intellectual 
feedback.

    Dr. Snyder. The Skelton Panel Report considered faculty as the 
determinant factor in quality education. What policies would you 
suggest be implemented to ensure that the highest quality civilian and 
military faculty and senior leaders are assigned to the Service and 
joint PME institutions?
    Dr. Williams. Others are better positioned to comment on specific 
assignment policies, but I would note that training future strategists 
and implementers has implications for recruitment, future assignments, 
and promotion. The most appropriate officers must be selected for PME 
positions as both students and faculty. All must utilize the 
competencies they develop in their future careers, which must be long 
enough for the Services to benefit from their educational experiences. 
In addition, time spent in educational institutions must not be in 
itself a negative factor in subsequent promotion decisions.
    Dr. Snyder. Considering the demands of the twenty-first century 
security environment, does the United States need more theoretical 
strategists (i.e., idea generators) than the few contemplated by the 
Skelton Panel Report? Do we need more applied strategists (i.e., 
practical implementers) than we did twenty years ago? If so, what 
percentage of the officer corps would need to exhibit these skill sets?
    Dr. Williams. As the question implies, both idea generators and 
practical implementers are needed in an increasingly complex and 
ambiguous security environment. Both benefit from highly rigorous 
training in a broad humanistic curriculum. This is especially useful 
because the future grand theorists may not be identifiable early on, 
but they will sort themselves out during the course of study proposed 
here. What the precise ratio should be is impossible to predict in the 
abstract, but it is not possible to have too many idea generators. 
Those officers would likely also have the ability to implement 
policies, although the reverse cannot be assumed.
    Dr. Snyder. How might the PME system better enable strategists to 
become fluent in geopolitical trends and potential causes for conflict 
in the next quarter century?

    <bullet>  Trends in: demographics, globalization, comparative 
economics, energy supply and demand, food production and distribution, 
water scarcity, climate change and natural disasters, pandemics, cyber 
connectivity, and the utility of space; and

    <bullet>  Contexts for conflict like: competition with conventional 
powers, regional influences, weak and failing states, non-state and 
transnational adversaries, the proliferation of WMDs, technological 
advancements, strategic communications, and rampant urbanization.

    Dr. Williams. Despite the importance of technological 
sophistication in the early part of some officers' careers, especially 
in the Navy and Air Force, there is no technical education that will 
produce strategists able to deal with the complexity described above. 
The only solution is a comprehensive education broadly based in the 
social sciences and humanities with an emphasis on history, such as 
Admiral Stansfield Turner instituted over great opposition at the U.S. 
Naval War College in the early 1970s.
    This does not seem to be the path the Navy, at least, is taking. 
Recent Navy policy to require that 65 percent of midshipmen at the 
Naval Academy and in NROTC programs have technical majors seems 
shortsighted, especially in view of the heavy technical course 
requirements required of all midshipmen, regardless of major. Indeed, 
all USNA midshipmen graduate with a Bachelor of Science degree anyway. 
This is not a new trend in the Navy, and was accelerated under the 
otherwise beneficial influence of ADM Hyman G. Rickover and with the 
assumption that a high proportion of the U.S. Navy fleet would be 
nuclear powered. There does not seem to be a significant constituency 
inside the Navy (or perhaps the Air Force, which I know less well) to 
combat this trend successfully. Its reversal will not occur without 
outside inquiry and direction.
    For a more detailed exposition of these points, the Subcommittee 
may wish to consult ADM James Stavridis and CAPT Mark Hagerott, ``The 
Heart of an Officer: Joint, Interagency, and International Operations 
and Navy Career Development,'' Naval War College Review, Spring 2009, 
pp. 27-41, and RADM (Ret.) Jacob Shuford, ``Re-Education for the 21st 
Century Warrior,'' U.S. Naval Institute Proceedings, April 2009, pp. 
14-19.
    Dr. Snyder. How should rigor be defined within the PME system in 
the future? Should the Skelton Panel Report's notions of rigor (i.e., 
challenging curricula, student accountability, and measurable student 
performance) be updated or expanded?
    Dr. Williams. I cannot improve upon the Skelton Panel Report's 
criteria for academic rigor. The challenge will be to operationalize 
these criteria so they can be the basis of an effective program. The 
most important student outcomes--developing innovative strategists and 
effective implementers--may not be apparent for years. I would offer 
the caveat that an overemphasis on achieving measurable outcomes will 
increase the focus on the technological issues that can be measured 
most easily but which contribute the least to developing strategists. 
Fitness/efficiency reports for periods of academic study should be used 
to help determine future assignments.
    Dr. Snyder. Are there elements of rigor that should be standardized 
among all PME institutions? How much discretion would you afford each 
individual institution in defining rigor?
    Dr. Williams. Different programs should be alike to the extent that 
they provide a challenging and intellectually open environment in which 
officers can develop their cognitive and expressive skills as 
effectively as possible. They will differ in the ways in which they go 
about achieving this result. Too much standardization is not desirable, 
as it stifles initiative and experimentation. I would allow a great 
deal of discretion to the educators and administrators at the various 
PME institutions, subject to a common understanding on the importance 
of academic rigor as stated above.
    Dr. Snyder. Each PME school has a different internal organization. 
Is a unique organizational character necessary at each of the schools 
to optimize the PME mission? What, if anything, should be standardized 
among the schools with respect to their organization?
    Dr. Williams. I can think of no particular organization of the 
schools in the PME system that would further the goals of the Skelton 
Committee Report most effectively. Standardization should be at the 
level of a common understanding of the educational purpose and the 
seriousness with which it should be pursued, not at the level of 
organizational details. There is also much to be said for maintaining 
the unique character of the various schools.
    Dr. Snyder. What are your views on the current military and 
civilian leadership and academic requirements for: Presidents, 
Provosts, Commandants, Deans, CAOs, Deans of Students, and Chiefs of 
Staff? Should we adjust any of these requirements?
    Dr. Williams. The leading academic officers of PME institutions 
must have strong administrative skills, but they must also understand 
the academic process and support its goals. I am not sufficiently 
familiar with the details of current statutory requirements or 
administrative regulations in this regard to have an informed opinion 
on specific guidance. It is imperative, however, that appointees to 
these key positions have strong academic qualifications and are 
committed to promoting a rigorous educational program in their 
institutions. Continued Congressional interest in this issue will be 
helpful to focus attention on these criteria and ensure that appointees 
are of the highest quality.

                                  <all>

</pre></body></html>
